<html>
<title> - OPEN HEARING TO CONSIDER THE NOMINATION OF JOHN L. RATCLIFFE TO BE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 116-467]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-467

                OPEN HEARING TO CONSIDER THE NOMINATION
                  OF JOHN L. RATCLIFFE TO BE DIRECTOR
                        OF NATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                          TUESDAY, MAY 5, 2020

                               __________

      Printed for the use of the Select Committee on Intelligence
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-699 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas                   MICHAEL F. BENNET, Colorado
BEN SASSE, Nebraska
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                              MAY 5, 2020

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     3

                                WITNESS

Cornyn, John, a U.S. Senator from Texas, On Behalf Of Former U.S. 
  Attorney General John Ashcroft.................................     5
    Prepared statement of Attorney General John Ashcroft.........     7
Ratcliffe, John L., Nominated to be Director of National 
  Intelligence...................................................    12
    Prepared statement...........................................    16

                         SUPPLEMENTAL MATERIAL

    Questionnaire for Completion by Presidential Nominees........    60
    Additional Prehearing Questions..............................    88
    Posthearing Questions for the Record.........................   171

 
                      OPEN HEARING TO CONSIDER THE
                 NOMINATION OF JOHN L. RATCLIFFE TO BE
                   DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              


                          TUESDAY, MAY 5, 2020

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-106, Dirksen Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Risch, Rubio, Collins, 
Blunt, Cotton, Cornyn, Sasse, Feinstein, Wyden, Heinrich, King, 
Harris, Bennet, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order.
    This hearing will be a little bit different. It is perhaps 
the first Congressional hearing held during the extenuating 
circumstances of the pandemic. We have a sparse crowd and an 
expanded dais reflective of the Committee's adherence to the 
guidelines put forth by the Rules Committee and the Attending 
Physician.
    I'd like to thank our Members and staff for their patience 
and understanding as we work through the logistics involved in 
holding this hearing, which is a critical part of the 
Committee's ongoing oversight of the Intelligence Community.
    Members will be joining us on a rotating basis throughout 
the morning and again this afternoon as we move to a closed 
session. Their absence now is not a reflection of the 
importance they place on this matter. We have asked Members to 
watch as much of the hearings as they can from their offices, 
only coming into the hearing room to ask questions.
    I'd also like to thank the press corps for your 
accommodation of the restrictions we're facing as we seek to 
fulfill our requirements to hold this nomination hearing in an 
open setting, or at least as open as current circumstances 
allow.
    Media in the room today are serving as a pool 
representative for the broader media community, and I know they 
will ensure quick and unvarnished dissemination of what is 
discussed in this hearing. While I'm certain the atmosphere of 
this setting will feature prominently in media coverage, I know 
the media will be focused on the important intelligence 
oversight and Committee management issues that are also going 
to be discussed.
    Finally, I want to thank the nominee who has patiently 
waited for this hearing. I know he's ready to get to work 
leading the Intelligence Community, which has continued to do 
its vital work under increasingly difficult conditions. These 
intelligence professionals--our eyes, our ears--follow 
developments we see in the headlines and threats that most of 
us will never see, from terrorists who seek to do us harm to 
cyber actors probing critical infrastructure to foreign 
intelligence officers capitalizing on the current situation to 
steal research from defense contractors or physics professors.
    Countries around the world have locked down, but those 
threats have not stopped. Our Intelligence Community, as 
always, remains on watch, joining their uniformed brothers and 
sisters guarding a grateful, if perhaps distracted, Nation. 
They deserve, and the country needs a certainty of a permanent 
Senate-confirmed Director of National Intelligence.
    After that extended introduction, I'd like to formally 
welcome our witness, Congressman John Ratcliffe, President 
Trump's nominee to be the next Director of National 
Intelligence.
    John, congratulations on your nomination.
    I wish I could also welcome your wife Michele and your 
daughters, Riley and Darby. I know they wanted to be here. But 
given our attempts to minimize the number of people in the 
hearing room, I send them my appreciation via C-SPAN. I thank 
them for their willingness to go on this journey with you and 
for their support.
    Today we will consider Congressman Ratcliffe's 
qualifications and engage in thoughtful deliberation. The 
Congressman has already provided substantive and written 
responses to more than 125 questions presented by Committee 
Members, and today's proceedings allow for further in-person 
discussions.
    Congressman Ratcliffe was elected in November of 2014 to 
the House of Representatives from the 4th District of Texas. He 
serves on the House Permanent Select Committee on Intelligence, 
the House Judiciary Committee, and the House Ethics Committee.
    Prior to his service in Congress, Mr. Ratcliffe was a 
partner in a law firm.
    During his tenure at the Department of Justice, he served 
as the First Assistant U.S. Attorney, as the Chief for 
Antiterrorism and National Security for the Eastern District of 
Texas, and then as the interim U.S. Attorney for the Eastern 
District of Texas. During that time Mr. Ratcliffe also served 
as Mayor for the City of Heath, Texas.
    Congressman Ratcliffe received his undergraduate degree 
from the University of Notre Dame. He received his law degree 
from Southern Methodist University.
    Congressman, you've been asked to lead the Intelligence 
Community at a time of profound threat and challenge. Given 
your experience as a Member of the House Intelligence 
Committee, we expect that you will lead the Intelligence 
Community with integrity, serve as a forceful advocate for the 
professionals in the IC, and ensure that the intelligence 
enterprise operates lawfully, ethically, and morally. I can 
assure you this Committee will continue to conduct vigorous and 
real-time oversight over the Intelligence Community, its 
operations, and its activities. We'll ask difficult and probing 
questions of you and your staff, and we expect honest, 
complete, and timely responses.
    I want to thank you, again, for being here, for your years 
of service to our country, and I look forward to your 
testimony.
    Before I turn to the Vice Chairman, I'd like to take a 
moment to note the passing of our dear friend, Tom Coburn. Tom 
served this Nation with distinction in the House and in the 
Senate and was a valuable member of this Committee. He cared 
deeply for this Committee, its staff, and the men and women of 
the Intelligence Community. He understood the importance of 
their mission and the mission of this Committee. His advice, 
counsel, and friendship will sorely be missed, and I utilized 
it no less than a month and a half ago.
    Some might wonder why my face looks a little hairy. This is 
the only way I could think of doing a tribute to Tom Coburn, 
and that was to do what Tom did when things were confusing and 
we lacked understanding as to what direction to go up here. As 
most of us know, Tom would come back, and he wouldn't shave for 
a month, two months, six months until things squared away. I'm 
not sure I'm going to wait until things are squared away, but I 
will wait until Tom's memorial service to properly memorialize 
him.
    I now recognize the distinguished Vice Chairman for any 
opening remarks he might have today.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Well, thank you, Mr. Chairman, and 
it's good to see you and my other colleagues.
    Let me start off for a moment where you left off. As 
somebody who spent literally years and years with Tom Coburn on 
a weekly basis, with the ill-fated Gang of Six effort, I got to 
know Tom's intelligence, integrity, irascible nature. Is that 
the right word?
    I share with you that he will be missed, and I would have 
joined you in that kind of tribute, but if you saw how badly a 
beard would look--any time I've tried to grow a beard, I'm 
probably doing better tribute by just saying things about him.
    Mr. Ratcliffe, it's great to see you. I know these are 
normally hearings where we are supposed to see the impression 
in the whites of your eyes. I'm not sure I'm going to be able 
to make that kind of judgment from here with my slightly aging 
eyes. I get the general sense of you, and I can actually see a 
little smile at that point. If it turns to grimaces at times, 
we'll know. But it's great to have you, and I appreciated the 
opportunity we had last Friday to spend some quality time 
together.
    Unfortunately, as the Chairman's already noted, I once 
again must note that these are unprecedented times. America 
faces the challenge to our lives and security that we've not 
had in over half a century. And it's during such trying times 
that we all recognize the value of nonpartisan expertise 
throughout our government. Nowhere is this clearer that in the 
apolitical Intelligence Community. The IC collects intelligence 
on imminent and potential threats, analyzes them 
dispassionately, and presents its best estimates without fear 
or favor to our Nation's leaders. This is essential so that 
policymakers can craft a timely and effective response to 
protect America. And nowhere is the need for competent, 
apolitical leadership clearer than in the position of the 
Director of National Intelligence who stands at the head of the 
Nation's 17 intelligence agencies.
    Unfortunately, what we've seen from the President ever 
since he came into office is an unrelenting and, I believe, 
undeserved attack upon our professional women and men of our 
intelligence agencies. This is not because our Intelligence 
Community is deserving of these attacks. Nor are they at the 
heart of some, quote unquote, deep state conspiracy to 
undermine our political leaders. No, I believe the President 
attacks our intelligence agencies for one simple reason, 
because unvarnished truth and unembellished analysis are not 
welcome in this White House.
    What we've seen over the last year has been especially 
dangerous: the systematic firing of anyone at the ODNI who has 
the temerity to speak truth to power. From DNI Dan Coats and 
Principal Deputy DNI Sue Gordon to acting DNI Admiral Joe 
Maguire to acting Director of the National Counterterrorism 
Center Russ Travers to the Inspector General of the 
Intelligence Community Michael Atkinson. These firings and 
forced departures from the leadership of the Intelligence 
Community have left the ODNI without a single Senate-confirmed 
leader at the helm. Instead, an acting DNI, with no experience 
in intelligence, but with plenty of political loyalty to the 
President, has been appointed to oversee America's intelligence 
enterprise.
    As acting DNI this individual promptly instituted a hiring 
freeze and a reorganization whose purpose has not been 
communicated to the intelligence oversight committees. He also 
quickly fired senior leaders with decades of experience in the 
IC. Alarmingly we have begun to hear reports that intelligence 
professionals have been inappropriately pressured to limit the 
information they share with Congress.
    And now Mr. Ratcliffe, the President has nominated you to 
this critical position of national security and intelligence 
leadership.
    I have to say that while I am willing to give you the 
benefit of the doubt during this hearing, I don't see what has 
changed since last summer when the President decided not to 
proceed with your nomination over concerns about your 
inexperience, partisanship, and past statements that seem to 
embellish your record. This includes some particularly damaging 
remarks about whistleblowers, which has long been a bipartisan 
cause on this Committee.
    I will speak plainly. I still have some of the same doubts 
now as I had back in August. Some have suggested that your main 
qualification for confirmation to this post is that you are not 
Ambassador Grenell. But frankly, that's not enough. Before we 
put the Senate stamp of approval and confirm a nominee to this 
critical position, Senators must demand the qualities that the 
Senate specified when it passed the law creating the ODNI after 
9/11, legislation which my colleagues like Senator Collins 
helped author. We must expect and demand professionalism, a 
nonpartisan commitment to the truth, and a rock solid 
dedication to defending those who defend us every day--the 
professional women and men of our Nation's Intelligence 
Community.
    I hope that today we can get a sense of your ability to 
adhere to that requirement. I look forward to the questioning 
and look forward to this opportunity. Thank you very much Mr. 
Chairman.
    Chairman Burr. I thank the Vice Chairman. Former Attorney 
General John Ashcroft was scheduled to be here to introduce 
Representative Ratcliffe. Given the current circumstances, he 
could not attend. He sent us his remarks and Senator Cornyn has 
kindly agreed to represent Attorney General Ashcroft today.
    Senator Cornyn, the floor is yours.

  OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM 
 TEXAS, ON BEHALF OF FORMER U.S. ATTORNEY GENERAL JOHN ASHCROFT

    Senator Cornyn. Thank you, Mr. Chairman. It is always good 
to be with my colleagues on the Senate Select Committee on 
Intelligence. Today it is my pleasure to introduce John 
Ratcliffe who is the nominee for the Director of National 
Intelligence.
    As the Chairman said, we do have a letter from the former 
Attorney General and it is rather lengthy. I'm not going to 
read all of it but I will refer to some excerpts. I would ask 
consent that it be made part of the record following my 
remarks.
    Chairman Burr. So ordered.
    Senator Cornyn. And the reason why I think it is so 
important for the Committee and the Senate to hear from former 
Attorney General Ashcroft is because of his intimate knowledge 
of the professional qualifications of the nominee as well as 
the personal qualifications, his intelligence, and his 
integrity.
    Let me just start by reading an excerpt from Attorney 
General Ashcroft's letter.
    He said: ``Integrity is the indispensable imperative for 
intelligence, the best friend of national security, and 
national security is the singular portfolio most allergic to 
the infection and devaluation that results from inaccuracy and 
distortion. For high-quality decision-making, sound 
intelligence must never be contaminated by personal bias or 
political predisposition.''
    General Ashcroft goes on to say: ``I have known and worked 
with John for more than a decade and I know of no person, no 
person, with a higher commitment to integrity, and I have seen 
him speak the unvarnished truth to those he works with and 
works for, whether senior government officials or corporate 
CEOs.''
    He makes the important point and he did in my conversation 
with him yesterday at his farm in Missouri, he makes the point 
that over the last 15 years Congressman Ratcliffe has served in 
crucial roles as both a developer and consumer of intelligence, 
a role that I think speaks to his background and qualifications 
for this job.
    Finally, he said: ``John Ratcliffe is committed to forging 
an Intelligence Community that delivers in a coordinated manner 
the most insightful and accurate intelligence and 
counterintelligence possible. He will serve decision-makers 
with fulsome, transparent intelligence that enables them to 
make decisions to defend the Nation from threats and to keep 
our citizens safe and free.''
    Mr. Chairman, I know that coming to this nomination as a 
Member of Congress, that Congressman Ratcliffe, as any Member 
of Congress might, people wonder does he really understand the 
difference between being in the adversarial atmosphere that is 
Congress and that especially speaks to our oversight 
responsibilities.
    As somebody who has had the privilege of serving in all 
three branches of government, both as a judge, as Attorney 
General of Texas, and now as a legislator, I can tell you that 
John Ratcliffe has the personal integrity and intelligence to 
be able to understand the difference between being a legislator 
and being the Director of National Intelligence. These are 
simply different roles to be played while discharging our 
government responsibilities.
    So I think that is something you might want to ask him more 
about, something I hope he will address. But I have known John 
personally for 10 years, and I am proud to support his 
nomination and to give you my strongest personal 
recommendation.
    The Chairman has mentioned his experience on the House 
Intelligence and Judiciary Committees as well as the Ethics 
Committee. I do believe that as a former U.S. Attorney he does 
understand, and as a current Member of the House Intelligence 
Committee he does understand, the vast threats our country is 
facing and the challenges that we face which lie ahead. We need 
to be able to count on a leader to operate free of personal or 
political motivations, serving only with the security and 
safety of the American people in mind. And I believe John 
Ratcliffe is the person to do that job. He is prepared to 
continue the legacy of outstanding leadership we have come to 
expect and count on from the DNI, and I have confidence in his 
ability to serve as a steadfast leader and advocate for the 
intelligence professionals of the IC and a trusted partner with 
this Committee.
    So Mr. Chairman, Ranking Member Warner, I appreciate your 
careful consideration of my friend and fellow Texan, John 
Ratcliffe, and appreciate the opportunity to introduce him 
today. Thank you very much.
    [The prepared statement of Attorney General Ashcroft 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Burr. Senator Cornyn, thank you for that 
introduction. With that, Congressman Ratcliffe, if you would 
rise and raise your right hand.
    Do you solemnly swear to give the Committee the truth, the 
full truth, and nothing but the truth, so help you God?
    Congressman Ratcliffe. I do.
    Chairman Burr. Please be seated.
    Before we move to your statement, I will ask you five 
standard questions the Committee poses to each nominee who 
appears before us. They just require a simple yes or no answer.
    One, do you agree to appear before the Committee here and 
in other venues when invited?
    Congressman Ratcliffe. Yes.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the Committee and designated 
staff when invited?
    Congressman Ratcliffe. Yes.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the Committee in order for it to 
carry out its oversight and legislative responsibilities?
    Congressman Ratcliffe. Yes.
    Chairman Burr. Will you ensure that your office and staff 
provide such materials to the Committee when requested?
    Congressman Ratcliffe. Yes.
    Chairman Burr. And five, do you agree to inform and fully 
brief the Committee to the fullest extent possible, all Members 
of this Committee, of the intelligence activities and covert 
action, rather than only the Chair and Vice Chair?
    Congressman Ratcliffe. Yes.
    Chairman Burr. I want to thank you very much. It's my 
intention to move to a Committee vote on this nomination as 
soon as possible. Therefore, for planning purposes, any Member 
who wishes to submit questions for the record after today's 
hearing, please do so quickly.
    We'll now proceed to your opening statement, after which I 
will recognize Members by seniority for five minutes. As 
discussed earlier, Members will have the opportunity to ask 
follow-up questions in the blocks that are designated. So let 
me state for the purposes of Members: We have 30-minute blocks. 
There is time allotted in that block for additional questions. 
There is not time in that block for everybody to have five 
minutes of additional questions. And I will state for Members, 
as the Vice Chairman and I have talked, at the end of 30 
minutes, regardless of where we are in that block with those 
Senators, I will cut it off because we've got a dead stop for 
this room at 12:00. So I thank every Member for their 
accommodations.
    With that, Congressman Ratcliffe, the floor is yours.

    OPENING STATEMENT HON. JOHN L. RATCLIFFE, NOMINEE TO BE 
               DIRECTOR OF NATIONAL INTELLIGENCE

    Congressman Ratcliffe. Chairman Burr, Vice Chairman Warner, 
and distinguished Members of the Committee, I'm honored to 
appear before you today as the President's nominee to be the 
next Director of National Intelligence.
    Before I begin, I'd like to acknowledge the efforts of the 
Committee staff, my own staff, as well as many officers at the 
Office of the Director of National Intelligence who helped get 
us here today. I appreciate their dedication in making today 
possible.
    I'd also like to share a few thoughts on the challenging 
times we face today. The COVID-19 pandemic has cut short the 
lives of over 67,000 Americans. It has sickened over 1 million 
Americans, and it has impacted every one of us. My deepest 
sympathies are with those we've lost, and I salute the efforts 
of those on the front lines, including the dedicated 
Intelligence Community professionals reporting for duty in 
carrying out their mission. These are truly trying times and 
your courage, honor, and sacrifice will not be forgotten.
    I'd like to begin by thanking President Trump for his 
incredible opportunity for me to serve our Nation and for his 
confidence in me. I'd also like to thank former U.S. Attorney 
General John Ashcroft for his gracious and humbling statement. 
I am forever grateful for your faith in me.
    I also want to recognize and thank Senator Cornyn for his 
kind words, and my fellow Texans for their support. It has been 
the privilege of my life to represent the constituents of the 
Texas 4th Congressional District.
    Finally, and most importantly, there's no way I could be 
with you today without the encouragement and support of my 
family. I'd like to recognize and thank my amazing wife 
Michele, our truly wonderful daughters Riley and Darby, my mom 
Kathy, and my five brothers and sisters--Kitty, Bob, Sharon, 
Pam, and Larry. Watching from above, I'm sure, is my late dad, 
Robert Ratcliffe. My career in public service is a direct 
reflection of my family's selflessness, their sacrifice, their 
enduring love of country, and for me. I simply don't have the 
words to adequately express my gratitude.
    My journey here today has been a mixture of public service 
and private sector experience. I graduated college at age 20, 
law school at age 23, tried my first case at age 24. A decade 
later, I was managing partner of my own law firm and, by most 
measures, I was successful.
    But something was missing. As the son of two public school 
teachers, I was taught from an early age the virtues of public 
service and self-sacrifice. Reflecting back, I realize it was 
those values that pushed me to a higher calling, one of service 
to the American people. The catalyst for me came on September 
11, 2001. When the first plane struck, I was sitting on the 
35th floor of a high-rise office building in Dallas, Texas, 
that looked a whole lot like the ones in New York that were 
under attack.
    I watched so many Americans give their lives that terrible 
day. And in the months that followed, I watched many more 
sacrifice so much to defend the United States. And it inspired 
me to take stock of all the gifts that I had been given and 
what I might contribute to the defense of this great Nation.
    Within a few years, I changed careers altogether. I left 
that civil law practice behind to become a Federal prosecutor 
in the United States Department of Justice. And during my four 
years in the U.S. Attorney's Office for the Eastern District of 
Texas, I served as Chief of Antiterrorism and National 
Security, First Assistant U.S. Attorney, and, finally, U.S. 
Attorney. My daily responsibilities involved leading and 
managing, directing and prosecuting national security cases and 
related matters, including domestic and international 
terrorism, drug and human trafficking, transnational crime, and 
illegal immigration, among others.
    I led and managed the District's Joint Terrorism Task Force 
activities and work closely with Justice Department officials 
and FBI on terrorism prevention, the overriding priority for 
the Department of Justice. In these roles, I came to appreciate 
the value of coordinated and integrated interagency efforts and 
the importance of timely, accurate, and objective intelligence 
in keeping Americans safe.
    For the past six years, I've been fortunate to serve with 
you all in here in Congress. I've continued to prioritize 
national security issues seeking assignments on the House 
Intelligence, Judiciary, and Homeland Security Committees. 
Although serving the citizens of the 4th Congressional District 
of Texas has been the honor of a lifetime, I believe that my 
passion for service combined with my experience, my abilities, 
and my judgment make me the right person to now successfully 
lead the men and women of the Intelligence Community.
    If confirmed as DNI, my top priority will be to present the 
President, senior policymakers, and this Committee with 
objective and timely intelligence to better inform decisions 
about the future and safety of our great Nation. As the 
President's principal intelligence advisor, I would ensure that 
all intelligence is collected, analyzed, and reported without 
bias, prejudice, or political influence.
    I see the Director of National Intelligence as more than 
just a leader, a manager, an integrator. The DNI must at all 
times be an arrow catcher, a problem solver, an obstacle mover 
for the IC. Addressing issues, resolving conflicts, and putting 
tools and resources in the right place at the right time. And 
always, always, the DNI must be the voice to advocate for and 
defend the interests of the IC and its people.
    If confirmed as DNI, you have my commitment to deliver 
timely, accurate, and objective intelligence and to speak truth 
to power, be that with Congress or within the Administration.
    Let me be very clear, regardless of what anyone wants our 
intelligence to reflect, the intelligence I will provide, if 
confirmed, will not be impacted or altered as a result of 
outside influence. Above all, my fidelity and loyalty will 
always be with the Constitution and the rule of law, and my 
actions as DNI will reflect that commitment.
    Many of you have asked me what I see as the greatest 
threats facing our Nation. The reality is that the threat 
landscape today is diverse, dynamic, and geographically 
diffuse, more so than ever before. I believe the immediate 
focus of the IC must be directed to the geopolitical and 
economic impact of the coronavirus pandemic as well as its 
origins. The American people deserve answers and, if confirmed, 
I pledged that the IC will remain laser focused on providing 
them.
    We face enduring challenges on other fronts as well. These 
include China, from the race to 5G to preventing cyber 
espionage. Russia and its continued efforts to undermine our 
democracy by interfering in free and fair elections. Iran and 
its continued pursuit of nuclear capabilities, ballistic 
missiles, and sponsorship of terrorist groups. North Korea and 
its continued possession of nuclear weapons and delivery 
systems. And transnational issues like cybersecurity, 
safeguarding our supply chains, and of course, preventing 
terrorist attacks or a resurgence of ISIS. This list is by no 
means exhaustive.
    To address the full spectrum of threats and threat actors, 
the IC must work continuously to earn the trust of the 
President, the Congress, and the American people. At its core, 
the DNI position is about leadership. If confirmed, I hope to 
be a stabilizing force to build trust and break down barriers 
to information-sharing as warranted in order to sharpen the 
analytic work of the Intelligence Community.
    For me, the ODNI remains the office best positioned to lead 
integration of the Intelligence Community. We can never 
underestimate the value of truly integrated intelligence 
operations or analysis, or assume that agencies would do so on 
their own without strong leadership from above. That said, I 
believe every government agency must constantly review its 
operations to ensure it is setting the right priorities, 
achieving mission objectives, and spending taxpayer dollars 
effectively and efficiently. If confirmed, I will work with IC 
leaders to assess what is working well and where we need to 
make adjustments to make the Community more effective, 
efficient, and resilient.
    In closing, to remain the world's premier intelligence 
enterprise the IC must continue to recruit and retain the best, 
brightest, and most diverse workforce our Nation has to offer. 
The men and women of the IC are dedicated civil servants who 
rarely, if ever, receive the full recognition of their 
sacrifice to country and dedication to the mission of keeping 
Americans safe, secure, and free.
    As DNI, there will be no greater champion of their hard 
work and dedication to this country than me. I'm honored by the 
opportunity to be able to be here with you today, and I thank 
you for your consideration of my nomination during these 
difficult times.
    I look forward to answering your questions.
    [The prepared statement of Mr. Ratcliffe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Congressman, thank you for those remarks.
    We'll go into the first block of time consumed by the 
Chair, the Vice Chair, Senator Risch, Senator Feinstein, and 
Senator Rubio. Members will have up to five minutes. I'll try 
to bank some time.
    Congressman Ratcliffe, several questions.
    When you're confirmed to be DNI, you'll be walking into an 
organization that's been led for quite some time by acting 
officials. It applies to the position for which you've been 
nominated, but also more recently to the Inspector General's 
Office. Independence and ability to speak truth to power are 
critical in both offices.
    Can you speak to your views of the importance of the 
Intelligence Community's Inspector General and your 
expectations of that office as DNI?
    Congressman Ratcliffe. Senator, thank you for the question. 
You made reference to acting officials. I have been an acting 
official for a period of time. I was Acting U.S. Attorney, so I 
have an appreciation for why Senate-confirmed leadership does 
make a difference and is important, and I appreciate this 
Committee considering me in that regard.
    I also appreciate the comments that you've made as has Vice 
Chairman Warner about speaking truth to power, and I very much 
intend to do that if confirmed as DNI.
    With regard to the Inspector General position, I have a 
strong record of supporting and defending and working with 
Inspectors General. For example, I have publicly defended 
Inspector General Michael Horowitz, even when some of my 
colleagues have criticized his work, and even when I have 
disagreed with some of his opinions. But I understand the role 
and the importance of the Inspectors General because there will 
always be misconduct, waste, fraud, and abuse when you have 
government.
    I am very committed, if confirmed as DNI, to working with 
the Inspector General to make sure that the Intelligence 
Community has that type of process in place to ensure that the 
Intelligence Community is always acting in the best interest of 
the American people.
    Chairman Burr. Congressman, over the course of the last 
three years this Committee has issued four reports about 
Russia's meddling in our elections, covering Russia's 
intrusions into State election systems, their use of social 
media to attempt to influence the election, and most recently 
confirming the findings of the 2017 Intelligence Community 
assessment.
    While being mindful of the fact that we're in an 
unclassified setting, what are your views on Russia's meddling 
in our elections?
    Congressman Ratcliffe. Chairman, my views are that Russia 
meddled in or interfered with active measures in 2016. They 
interfered in 2018. They will attempt to do so in 2020. They 
have a goal of sowing discord, and they have been successful in 
sowing discord. Fortunately, based on the work, the good work 
of this Committee, we know that they may have been successful 
in that regard, but they have not been successful in changing 
votes or the outcome of any election. The Intelligence 
Community, as you know, plays a vital role in ensuring that we 
have safe, secure, and credible elections and that every vote 
cast by every American is done so properly and counted 
properly.
    Chairman Burr. Will you commit to bringing information 
about threats to the election infrastructure and about foreign 
governments' efforts to influence elections to Congress so 
we're fully and currently informed?
    Congressman Ratcliffe. I will.
    Chairman Burr. Will you commit to testify at this 
Committee's annual worldwide threats hearing?
    Congressman Ratcliffe. I will.
    Chairman Burr. And last question, I mentioned that over the 
past three years we have issued four reports. Number five is 
finished. Number five will go for declassification.
    Do we have your commitment as DNI that you would 
expeditiously go through the declassification process?
    Congressman Ratcliffe. You do.
    Chairman Burr. Senator Warner.
    Vice Chairman Warner. Thank you, Mr. Chairman. You actually 
took some of my questions.
    Chairman Burr. My eyesight is good.
    [Laughter.]
    Vice Chairman Warner. Mr. Ratcliffe, again, good to see 
you, and I appreciated our time last Friday. I want to follow 
up on a couple of the Chairman's questions first.
    You know, as we discussed, we are at Volume 5, and so far 
our first four volumes have all been unanimous, or I think 
maybe with the exception of one dissenting vote. If we get this 
document to the ODNI, we need your commitment not only that we 
do it expeditiously, but as much as possible to get that Volume 
5 reviewed, redacted, and released ideally before the August 
recess.
    Now, I know you've not seen the report yet. All I would ask 
is aspirationally that you commit to that goal because I think 
as we discussed, to have a document that could be potentially 
significant come out in the midst of a Presidential campaign 
isn't good or fair on either side. So, if I could clarify a 
little bit recognizing that you've not seen the document--it's 
1,000 pages--that you would try to get this cleared prior to 
August?
    Congressman Ratcliffe. Vice Chairman, I will again commit 
that I will work with you to get that declassified as 
expeditiously as possible.
    Vice Chairman Warner. Again, our goal is to get it up 
before August. Again, following up on the Chairman's comments, 
and we talked about this in person, but I want for the 
Committee and for the public record, you've indicated that you 
do believe that Russia interfered. What this Committee's 
judgment was, particularly in Volume 4, but throughout all 
volumes, was that not only did Russia interfere, but during 
their interference in 2016 they had a selected candidate they 
were for and a selected candidate they were against. For 
candidate Trump, against candidate Clinton.
    Have you had a chance to review our documents, and have you 
reached a similar conclusion--a conclusion that actually 
reinforces the unanimous conclusion of the Intelligence 
Community assessment--or can you comment on our Volume 4?
    Congressman Ratcliffe. Senator, I very much appreciate the 
bipartisan approach in which this Committee addressed that 
issue. I did have a chance to review Volume 4, which I know 
confirms the IC assessment.
    I have no reason to dispute the Committee's findings. I 
will say that I have no reason to dispute the Committee that I 
serve on, HPSCI, the House Intelligence Committee's finding, 
which is a different perspective with regard to that one issue 
that you mentioned, about a preference for a candidate. I was 
not on the Committee at that time. I respect both Committees, 
but I have not seen the underlying intelligence to tell me why 
there is a difference of opinion between the two Committees.
    But I, again, very much appreciate Volume 4 and the work 
that this Committee put in. And again, I would reiterate: the 
most important take away from the findings I think of both 
Committees is that as Russia continues to sow discord, that 
they have not been successful in changing votes or the outcome 
of an election, and we need to remain committed to making sure 
that that does not happen in the future.
    Vice Chairman Warner. Respectfully, to me, to make that 
kind of assessment and decide how we're going to prevent 
Russia's further interference in 2020, if they have a clear 
preference for one candidate over another, that would just also 
alter how we counter those efforts. So I really hope that you 
will spend the time and look at the underlying intelligence. If 
you find that you reach a conclusion that is different than the 
unanimous conclusion of the Intelligence Community or the 
unanimous conclusion of the SSCI here, I would expect a brief 
on that and pointing out how you found our conclusions or the 
IC's conclusions were inaccurate.
    You commit to come back to us if you reach a different 
conclusion once you've reviewed that underlying intelligence?
    Congressman Ratcliffe. I will.
    Vice Chairman Warner. One of the things we also discuss, an 
area of the Community that seems under assault with the acting 
ODNI, and that is the Election Security Unit. There are 
obviously different parts of the IC. The NSA has a group. The 
CIA has a group. But one of the most important is the group 
that was stood up by Director Coats. It includes intelligence 
professionals like Shelby Pierson. They have briefed us on a 
regular basis.
    I would like your commitment that since we are literally 
less than six months away from this year's Presidential 
elections that you will not take any efforts to dismantle the 
current leadership of the Election Security Unit or the current 
capabilities of the Election Security Unit this close to the 
2020 election.
    Congressman Ratcliffe. Senator, I have no intention of 
making changes in that regard.
    Vice Chairman Warner. And that that unit, should they have 
data that is relevant and appropriate for this Committee's 
responsibility, that that unit will be able to continue on a 
regular basis to brief this Committee.
    Congressman Ratcliffe. Senator, I want to make sure that I 
am clear throughout the day that if confirmed as DNI--and I 
look at the global threat landscape--I mentioned, the global 
pandemic, and the IC role with respect to that--but the other 
immediate concern is safe, secure, credible elections and I 
will do everything and make it my highest priority if confirmed 
to do everything possible that we have those safe, secure, 
credible elections in 2020.
    Vice Chairman Warner. But it is important, again, that that 
group who has briefed this Committee on a regular basis 
continues to have that ability to brief. And again, echoing 
what the Chairman has said, and--I don't know whether our 
clocks are running.
    Chairman Burr. They are not running.
    Vice Chairman Warner. Well, you will give me a high sign?
    Chairman Burr. You're good.
    Vice Chairman Warner. Let me ask my last question then. 
Should you be confirmed, we are already past the due date on 
when we would have the traditional worldwide threat hearing. 
You have committed to the Chairman that you would hold that 
hearing. My hope would be that that commitment would take place 
within 60 days of you being confirmed.
    Congressman Ratcliffe. Senator, I will make a commitment 
to--I look forward, if confirmed, to appearing as a DNI in a 
worldwide threats hearing. I don't want to make a commitment in 
terms of time that I don't know what I am promising exactly. 
What I will make the commitment is that if confirmed I agree 
that it is important and I will work to make that happen as 
expeditiously as possible.
    Vice Chairman Warner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Congressman Ratcliffe has been incredibly generous with his 
time with me. I have had an opportunity to spend some time with 
him. I have all of the questions that I need answered from him 
already. Indeed, most of them aren't available for discussion 
in an open setting like this. But in the interest of keeping 
you on time and on schedule, I am going to yield back my time 
since I do have answers to my questions. So, thank you.
    Chairman Burr. I thank you, Senator Risch.
    With that, Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Congressman, welcome.
    Congressman Ratcliffe. Thank you.
    Senator Feinstein. I would like to ask you a couple of 
questions about whistleblowers if I might. This Committee has 
adhered to a tradition of protecting whistleblowers. However, 
it is my understanding that your participation in President 
Trump's campaign to punish and discredit one IC whistleblower 
suggests you do not align yourself with this bipartisan 
approach.
    Let me give you an example.
    During a December 11 hearing of the House Committee on the 
Judiciary, you claimed without any evidence that the 
whistleblower got caught making a false statement.
    On December 12 you tweeted that the whistleblower didn't 
tell the truth both verbally and in writing. You also attacked 
HPSCI staff for providing guidance to potential whistleblowers 
on how to lawfully make a disclosure.
    Here's the question: if you are confirmed do you believe 
that your past remarks concerning the Ukraine whistleblower 
will discourage IC whistleblowers from exercising their rights 
consistent with the law to make protected disclosures?
    Congressman Ratcliffe. Senator, thanks for the question.
    I want to make it very clear. If confirmed as DNI, every 
whistleblower past, present, and future will enjoy every 
protection under the law.
    I don't want to relitigate old issues of what happened 
during the impeachment inquiry. My issue was not with the 
whistleblower. My issue was with what I perceived as a lack of 
due process in the House process. Again, I don't want to 
relitigate the issue, so I will leave it at that, but every 
whistleblower can expect full protection under the law.
    Whistleblowers are so important. A whistleblower doctor in 
China is one of the reasons we got an earlier warning, so I 
will make that commitment to you, Senator.
    Senator Feinstein. Thank you very much. I appreciate that.
    On the evening of April 3, President Trump announced that 
he was firing Mr. Atkinson because he had sought to transmit to 
Congress a credible whistleblower complaint of urgent concern, 
one that was required by law to be transmitted to Congress.
    Do you share the belief of Members of this Committee and 
the Senate that Mr. Atkinson was improperly fired, despite the 
fact, as Acting Director Maguire said, he did everything by the 
book and followed the law?
    Congressman Ratcliffe. Well, Senator, I appreciate the 
question, and I think before you entered the room I talked 
about my history and strong support of working with Inspectors 
General. I talked about Inspector General Horowitz who is 
someone I went to when I thought that there was a problem with 
the misuse of intelligence authorities and very much 
appreciated his approach and work, and some of the concerns 
that I raised were presented in his findings and his report.
    With respect to Inspector General Atkinson and the 
situation that you described, I don't have enough information 
to answer your question and if I can explain why. I will tell 
you that my dealings with Inspector General Atkinson, I had no 
issues. I think he did what he thought was right. I think he 
did think that he was following the law.
    The flip side to that is that the legal opinion within the 
ODNI from the General Counsel and from the Department of 
Justice Office of Legal Counsel--my reading of it is that their 
determination was that he may have exceeded his authority 
because the investigation involved issues that were not 
intelligence activities or Intelligence Community employees. 
That is a legal question that I don't know the answer to.
    Again, I very much want to reiterate that, if confirmed, 
how important Inspectors General are in government and my 
strong history of working with them. And I understand, although 
he's in an acting capacity, that Inspector General Tom Monheim 
is in that role. I don't know him but he's a 30-year veteran, 
very well respected, so I hope to have the opportunity to work 
with him.
    Senator Feinstein. Thank you. I appreciate that answer.
    If confirmed, do you commit to directing all IC agencies to 
cooperate fully with Congressional oversight requests regarding 
COVID-19, and to promptly produce for the full membership and 
staff of the Congressional Intelligence Committees all 
intelligence requested by Congress regarding COVID-19?
    Congressman Ratcliffe. Senator, thanks for the question.
    Senator Feinstein. And that is meant to be a broad 
question.
    Congressman Ratcliffe. It is and I appreciate the question. 
In my opening remarks, and then I think reiterating in one of 
my responses, that the immediate concern that I have is getting 
answers from the American people through the Intelligence 
Community if confirmed. If confirmed the Intelligence Community 
will be laser focused on getting all of the answers that we can 
regarding how this happened, when this happened. And I commit 
to providing with as much transparency to you as the law will 
allow and with due regard for sources and methods--that 
everything be provided as quickly as possible.
    Senator Feinstein. Thank you. Just a couple of questions 
quickly about hard targets.
    In your view, is the IC doing enough to collect against 
hard targets like North Korea?
    Congressman Ratcliffe. Senator, as you know the challenge 
with North Korea is visibility. And I think that my impression 
from the outside, like you as a Member of an Oversight 
Committee of Intelligence, is that we have very good 
collection. I'm only caveating it because, if confirmed as DNI, 
I may have a different viewpoint or more information to look 
at. I would make it a priority, you know. I think collection, 
obviously, and analysis of our intelligence is what makes this 
the greatest intelligence enterprise in the world. And I will 
commit that if we are not doing enough, Senator, I will make it 
a high priority to improve any standards that we may need to 
employ.
    Senator Feinstein. Thank you, Mr. Chairman.
    Congressman Ratcliffe. Thank you.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Congratulations on your nomination. I think that's you. 
People are watching on television. They can't see how far away 
we are. We've gotten to know each other a little bit over the 
years, not in the setting of intelligence, but through mutual 
friends.
    So I just kind of want to ask you a very simple and 
straightforward question. You have an accomplished career. You 
are, by electoral standards, in a seat that would be considered 
by the ``Cook Report'' as a safe District. You seem to be 
enjoying your work.
    Why are you doing this? And I don't mean that in a negative 
way. I mean, obviously you've exposed yourself to criticism, 
and the climate today in politics is pretty intense. I think 
the most fundamental part of my question is why is this a job 
that you are willing to step forward and do at this time?
    Congressman Ratcliffe. Senator, I appreciate the question. 
I appreciate the time that we've had to get to know each other 
when you've come over to the lower House to visit with us.
    First of all, I think any time the President asks you to do 
something for your country, you ought to consider if there's a 
way for you to salute smartly and say yes.
    But beyond that, you have to want this job. And for the 
same reason I in my opening talked about leaving successful law 
practice to make a fraction of that to be a Federal 
prosecutor--the mission is too important. And what the 
Intelligence Community means, how it has positioned the United 
States as the world's superpower, and I think everyone knows 
that the relationship between the Intelligence Community, 
Congress, the President, and across the board right now is 
something that's at issue. We've got intelligence authorities 
and their uses being questioned.
    I realize it's sort of a difficult time, but DNI, again, 
the core responsibility is leadership and it's easy to raise 
your hand when things are going perfectly. It's harder to raise 
your hand when they're not. And the mission is too important, 
keeping Americans safe, and the opportunity to lead is 
something that I want to do.
    And I guess I will say this, it's been the privilege of my 
life to serve as a Member of Congress. But the best job I ever 
had was to be the United States Attorney. What I loved about it 
was it was an apolitical position. I stood up always to 
represent the United States of America. Never one party or 
another. And I very, very much view that as this role for the 
DNI. I look forward to treating every Member--Republican and 
Democrat--exactly the same way, and frankly, being out of 
politics.
    Senator Rubio. That's an important question, because I've 
heard some of the skepticism that's been raised is about 
experience and the experience needed to lead this intelligence 
enterprise. And it's my view you actually have a pretty 
extensive experience, both on the Committee and in the House, 
Homeland Security and Intelligence and also on Judiciary. And 
then your work, as I said, as a U.S. Attorney.
    What is it, and what you have done, during your career that 
you believe prepares you best for the role you now have of 
overseeing all of these different pillars of our intelligence 
capabilities?
    Congressman Ratcliffe. Well, I think, as was mentioned 
earlier, I've now seen intelligence from three different 
vantage points: as an end-user and a developer, as a consumer 
of intelligence, and as an overseer of intelligence. And as far 
as experience, I started handling national security issues back 
in 2005, and that included intelligence authorities. My first 
exposure with FISA was 2005. And in trying to respond to this 
Committee, we found that in at least one instance, the 
authorities that I used remain, or the matters that I worked 
on, remain classified. So from an experience standpoint, as far 
back as 2005, I've been using those authorities.
    But I think the role of U.S. Attorney in particular, and my 
time as Chief of Antiterrorism for four years is particularly 
well-suited and analogous to the DNI. So as U.S. Attorney, I 
was running a federated enterprise working across Federal 
agencies, integrating, coordinating, sharing information, and 
doing so in an apolitical way. And that's very much what the 
Director of National Intelligence does. Integrates and 
coordinates across all 17 intelligence agencies, making the 
Community better so that it can make Members of Congress, the 
President, and our policymakers better informed on national 
security decisions.
    My time in Congress as well, the committees that I've been 
on: legislating, creating national security laws. I think I've 
got a broad, deep, and more than qualified level of experience 
when we talk about national security issues. And I also think 
I've got good judgment because I've identified when there are 
problems with the use of intelligence authorities. And I've 
spoken truth to power when I've seen it misused.
    Senator Rubio. I enthusiastically support your nomination 
and I look forward to voting for you on the Committee and again 
on the floor. Thank you.
    Chairman Burr. If any Member currently has one additional 
question, I'll be happy to entertain them. Senator Feinstein. 
If you got a quick one.
    Senator Feinstein. I could ask one question. It's something 
that I have followed--tried to cure. I've been very concerned 
by the growth of contractors over the last 20-plus years in the 
agencies. And when I was Chairman of the Committee, we made a 
big push to ensure that all inherently government functions of 
the IC were performed by government employees and not 
contractors. It's my understanding that that effort continues 
today and we made substantial progress over the two decades in 
this.
    What is your view on the appropriate use of contractors in 
the Intelligence Community?
    Congressman Ratcliffe. Senator, I'm not saying this because 
you are considering me for the position as the nominee, but I 
agree with every word you just said with regard to contractor 
use and how it should be limited and where government employees 
should be doing government functions. I know there's always a 
look in terms of ratios and the percentages. I'm not a one-
size-fits-all person.
    If confirmed as DNI, I'll look at where things stand right 
now. But the concern that you have, the sentiment that you 
expressed--let me just reiterate that I agree with you 
completely and look forward to working with you on this issue 
if confirmed.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Feinstein. With that, the 
first block of time has expired. The Chair would move to the 
second block of time and go somewhat out of order because 
Senator Wyden is not here. I will turn to Senator Collins for 
any questions.
    Senator Collins. Thank you, Mr. Chairman.
    Congressman, I appreciated the opportunity to talk with you 
last week. As one of the authors, along with former Senator Joe 
Lieberman, of the 2004 law that created the Director of 
National Intelligence position, I have a special interest in 
making sure that the leader of the Intelligence Community 
fulfills what we envision. In that regard, I appreciated the 
opportunity to review your background with you in depth to make 
sure that you met the statutory standard of having extensive 
national security expertise.
    So today, I want to turn to a different issue. As some 
Members have already said today, the ability to speak truth to 
power is essential to serving as a successful DNI.
    Would you communicate the Intelligence Community's analytic 
views to the President, even if you knew that he would strongly 
disagree with them?
    Congressman Ratcliffe. Of course.
    Senator Collins. Would you be willing to communicate the 
IC's analytic conclusions to the President, even if you 
believed it would place your job in jeopardy?
    Congressman Ratcliffe. Of course.
    Senator Collins. Assuming your confirmation, when you 
participate in the next open worldwide threats hearing and you 
are asked to provide an unclassified IC assessment that you 
know that the President vehemently disagrees with, what would 
you do?
    Congressman Ratcliffe. Senator, whether you're talking 
about the President, whether you're talking about Nancy Pelosi, 
Mitch McConnell, anyone's views on what they want the 
intelligence to be will never impact the intelligence that I 
deliver. Never.
    Senator Collins. Thank you for that strong response. I'm 
nevertheless going to ask you one more that has to do with the 
internal operations of the Intelligence Community.
    What would you do if the Intelligence Community was 
prepared to publish a President's Daily Brief that directly 
contradicted the White House's conclusions on an important 
issue like North Korea?
    Would you still allow the PDB to be published?
    And the reason I ask this question is there are some very 
experienced analysts within the IC that are concerned that you 
might attempt to shade the conclusions in order to avoid 
alienating the President in presenting his daily brief.
    Congressman Ratcliffe. Senator, I think before you were in 
the room I reiterated multiple times that I won't shade 
intelligence for anyone, whether we're talking about the 
President, Members of Congress, any policymakers.
    As far as published on the President's Daily Brief, I guess 
I'm not sure about the word ``publish''--when you say--how you 
mean that.
    Senator Collins. I should have used the word ``issued.''
    Congressman Ratcliffe. So, absolutely. I just want to make 
sure because the President's Daily Brief is the President's 
Daily Brief.
    Senator Collins. Right.
    Congressman Ratcliffe. But to the larger question, again, 
just if I can reiterate as clearly as possible. If confirmed as 
DNI, one of the things that I've made clear to everyone is that 
I will deliver the unvarnished truth. It won't be shaded for 
anyone. What anyone wants the intelligence to reflect won't 
impact the intelligence that I deliver.
    Senator Collins. And finally, and I asked this question to 
you on the telephone, but I want to ask it to you for the 
record.
    The President has said that the IC has run amok and needs 
to be reined in. Do you share the President's view?
    Congressman Ratcliffe. I think what we talked about, 
Senator, about a number of things there--and I'm sure going to 
get a lot of questions about what the President says or what 
the President thinks. And again, I don't mean to be repetitive, 
but none of those things, regardless of what he says or how he 
says them, or how Nancy Pelosi or Mitch McConnell or anyone 
says about the intelligence or the Intelligence Community--will 
not impact the intelligence that I deliver.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Congressman, 
welcome.
    Congressman Ratcliffe. Thank you.
    Senator Wyden. Let me begin this way. Donald Trump said 
last year: the Constitution says, and I quote here, I can do 
whatever I want as President.
    The Attorney General has said the President doesn't have to 
follow the Foreign Intelligence Surveillance Act and can 
conduct surveillance without a warrant.
    Those two statements are a direct threat to the 
Constitutional rights of Americans, and it makes the Director 
of National Intelligence a last line of defense for our 
democracy.
    Do you believe the President can spy on Americans outside 
the law?
    Congressman Ratcliffe. Senator, I don't think anyone can 
spy on Americans outside the law.
    Senator Wyden. So would you refuse to authorize the 
Intelligence Community to conduct warrantless surveillance?
    Congressman Ratcliffe. Senator, when you talk about----
    Senator Wyden. You answered no, so I'm asking you.
    Congressman Ratcliffe. Just to be real clear, my answer is 
consistent. Whatever the law is is what I will do if confirmed 
as DNI within my authorities. I will act within my authorities. 
But most importantly I will be guided by the Constitution and 
the rule of law. So whatever authorities allow the Intelligence 
Community to do, all of our actions, if I'm the Director, will 
be in compliance with what the law is as----
    Senator Wyden. My time is short.
    Congressman Ratcliffe. I'm sorry.
    Senator Wyden. Congressman, the point is you really didn't 
say no in answer to my question. You said there may be 
circumstances. I happen to think that answer--that there may be 
circumstances when the President can spy on Americans outside 
the law--is an exceptionally dangerous bit of testimony.
    I'm going to move on.
    Congressman Ratcliffe. Maybe can I just--because the 
record's clear. Maybe I misspoke then. I want to be real clear 
that no one can spy or surveil outside the law, and if 
confirmed as DNI, one of my highest priorities will always be 
to make sure that the Intelligence Community is acting in 
accordance with the law. So I want to make that very clear, 
Senator.
    Senator Wyden. Again, you're qualifying this based on 
circumstances, and that's what I think is dangerous.
    Now, I also want to get into your views on whistleblowers. 
Now, it is open season on whistleblowers right now in 
Washington, D.C., and you gave a pleasant-sounding statement 
about whistleblowers. So I want to be very specific.
    If the Inspector General determines that a whistleblower 
complaint should be sent to Congress, are you going to send it 
over to the Department of Justice or the White House to get 
their permission?
    Congressman Ratcliffe. Any whistleblower complaint, if I'm 
confirmed as DNI, is going to be handled in accordance with the 
law. I don't know how it can be more clear than that.
    Senator Wyden. I think you could say unequivocally no, 
because that's what I think is important. And what I want to 
know is whether there is some kind of veto power over whether 
Congress hears from whistleblowers. And as with the previous 
question with respect to spying, you want to have it both ways. 
You want to try to portray yourself as a defender of the 
Constitution, and then you water it down with the specifics.
    Should the identity of whistleblowers ever, under any 
circumstances, be disclosed without their consent?
    Congressman Ratcliffe. No, whistleblowers are entitled to 
anonymity.
    Senator Wyden. So what is your opinion of those who would 
call for the outing of IC whistleblowers?
    Congressman Ratcliffe. That whistleblowers are entitled to 
anonymity under the law. And if someone----
    Senator Wyden. Are you distinguishing between lawful 
whistleblowers, or lawful whistleblower complaints? Again, I'm 
trying to get a sense of what you actually believe.
    Congressman Ratcliffe. If someone is a whistleblower under 
the law, they are entitled to the protections of the 
whistleblower statute under the law, and before you were in the 
room----
    Senator Wyden. I heard the answer.
    One last question. I want to get it in.
    You, in your written answers, seem to think internet voting 
was okay. You gave a very qualified answer. I happen to think 
it's the equivalent of putting our ballots on the streets of 
Moscow.
    So could you tell me why you think internet voting is okay, 
given all the threats that we have seen to our democracy?
    Congressman Ratcliffe. I don't recall the response or how I 
responded, Senator, but it seems to me that that is a policy 
issue that if confirmed as DNI I would not be in the role of 
making policy. It wouldn't matter. Whatever the law is 
regarding----
    Senator Wyden. We expect you to be a leader on election 
security, and if you support the kind of snake oil salesmen 
we've got in this country that are selling some of these online 
voting operations, you're going to put at risk our special 
system of government.
    I think my time is up, Mr. Chairman. Thank you.
    Congressman Ratcliffe. Thank you, Senator.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Welcome, Congressman.
    In your statement for the record you wrote that, quote, the 
President and I have a good rapport. So if confirmed as DNI, 
you said: you have my commitment to deliver accurate and 
objective intelligence and speak truth to power. Dan Coats, Sue 
Gordon, Joe Maguire, other dedicated IC professionals had a 
good rapport with the President as well, until they didn't.
    Can you give me some specific examples of when you've had 
to speak truth to power, in particular, if it's involved the 
President of the United States?
    Congressman Ratcliffe. Sure. Senator, I appreciate the 
question. The reason I said a good rapport is--I think trust is 
important. I think it's one of the things that is important and 
can strengthen the relationship between all parties. 
Intelligence Community, Congress, the President.
    One of the reasons that I indicated before you were in the 
room that I wanted this job was because it is apolitical, and I 
have held apolitical positions before. As U.S. Attorney, that 
is an apolitical role and, in those instances, I frequently had 
to speak truth to power from the standpoint of there were many 
occasions where people wanted me to exercise my discretion in a 
way that considered something other than what the law was, and 
I never did.
    Senator Heinrich. Can you give a particular example?
    Congressman Ratcliffe. Oh, so-and-so is, you know--I don't 
want to give examples that would give away a specific case--but 
if someone was, for instance, a good Republican or a good 
Democrat and held a position and maybe deserved some special 
consideration. Those kinds of things.
    Senator Heinrich. Gotcha.
    Congressman Ratcliffe. And in addition----
    Senator Heinrich. I think that's adequate. I just want to 
reclaim my time here for a moment.
    Last year, the President defended nominating you for the 
DNI position stating that: You would do an incredible job and 
we need somebody like that in there. We need somebody strong 
that can reign it in, because as I think you've all learned, 
the intelligence agencies have run amok.
    What do you think he meant by that?
    Congressman Ratcliffe. I don't know. I saw the comment, 
Senator. I've made clear that, again, first of all, I've made 
clear, as I just said to you, one of the reasons that I want 
this position. I've made that without betraying any 
conversations, but that sentiment I have expressed to the 
President. And he understands that I'm looking forward to this 
position because it's apolitical and that the intelligence that 
I will deliver is unvarnished or shaded in any respect.
    Senator Heinrich. Do you think that the Intelligence 
Community or even a single agency has run amok?
    Congressman Ratcliffe. I have never said that.
    Senator Heinrich. President Trump has repeatedly and 
without any basis, in my view, accused the hard-working men and 
women of the IC of working to undermine his Administration.
    Do you believe that there is a, quote unquote, deep state 
in the IC?
    Congressman Ratcliffe. I don't know what that means. 
Senator Collins and I, I think, talked about that in our call. 
I don't know what that is.
    Senator Heinrich. So would you agree that it would be 
inappropriate and, in some contexts, illegal to remove or 
reassign, to screen or otherwise discriminate against career IC 
personnel for political reasons?
    Congressman Ratcliffe. Yes.
    Senator Heinrich. Including on the basis of their work 
assignments in previous Administrations?
    Congressman Ratcliffe. Yes.
    Senator Heinrich. Okay, thank you.
    The President has publicly stated that he expects loyalty 
from his appointees, and he publicly withdrew your nomination, 
appointed another individual, but then formally resubmitted 
your nomination. That sort of turn of events just raises some 
unique questions.
    During your conversations with the President regarding this 
position, what priorities did he communicate to you that he 
expected you to pursue on his behalf? And did the word 
``loyalty'' ever come up?
    Congressman Ratcliffe. Senator, a couple points there. I 
want to be real clear. My loyalty is to the Constitution and 
the rule of law, and I have made that very clear to everyone, 
including the President.
    Senator Heinrich. So you did discuss loyalty?
    Congressman Ratcliffe. No. I've made clear that if I'm in a 
position, my loyalty is always going to be to the Constitution 
and rule of law.
    Senator Heinrich. So you've made that proactively clear. 
You weren't asked.
    Congressman Ratcliffe. Yeah, I made that proactively clear.
    Senator Heinrich. And you were not asked?
    Congressman Ratcliffe. And I was not. I absolutely was not 
asked.
    And the priorities--one of the priorities--again, I don't 
want to get into specific conversations--but the sentiment is 
keeping politics out of the Intelligence Community. It's one of 
my priorities.
    And one thing, too, I guess because it's been reported: I 
withdrew from consideration. I wasn't withdrawn. And so I just 
wanted the record clear with respect to that.
    Chairman Burr. Senator Collins, do you have one additional 
question you'd like to ask?
    [No audible response.]
    Senator Wyden, one additional question?
    Senator Wyden. Thank you, Mr. Chairman.
    Congressman, the Congress passed a law requiring an 
unclassified report on who was responsible for the murder of 
Jamal Khashoggi. This is a law today, not a bill, it is a law. 
The DNI, however, has outright refused to comply with this law, 
denying the public a single shred of information on this topic.
    Do you agree that the government is bound by this law and 
is obligated to provide this report, which stipulates in 
public, in public, who killed Jamal Khashoggi and under what 
circumstances?
    Congressman Ratcliffe. Senator, I share your concern. I 
think I've seen the same information that you have, and I think 
you're referring to the provisions in the NDAA. And if 
confirmed as DNI, again, I will ensure that the law is complied 
with.
    I realize that the information, I think, in the report, if 
we are talking about the same thing, is a request for 
unclassified information. So if confirmed, I want to look 
myself at the information to make sure that that information 
has been classified properly.
    Senator Wyden. But that's not the question. This is a law. 
This is a law, Congressman. And consistently in every one of 
the areas that I asked you about with respect to spying, with 
respect to whistleblowers, now with respect to the law, these 
are pretty much straightforward yes or no questions. And now 
you've said you're going to look at what is classified with 
respect to the late Mr. Khashoggi. We passed a law that 
resolved it. It is supposed to be made available now.
    Congressman Ratcliffe. May I respond?
    Senator Wyden. So, I'll look forward to your adding to the 
record on it, but I will tell you, you have certainly been 
briefed with respect to coming to this hearing. But on issue 
after issue, I've asked pretty straightforward questions and 
what I have gotten is a kind of let us sort of circle the 
subject and not answer it. Thank you, Mr. Chairman.
    Chairman Burr. Senator Heinrich, do you have an additional 
question?
    Senator Heinrich. Just one. As you know, Congress has not 
authorized organizational changes at ODNI. We have not 
appropriated funds for that purpose, but Acting Director 
Grenell has been reorganizing ODNI.
    If confirmed, would you halt that reorganization and would 
you seek authorization from Congress to reorganize if you found 
the need to do so?
    Congressman Ratcliffe. Senator, thanks for the question. If 
I can just first comment to Senator Wyden's point. I was hoping 
to make the point that I'm certainly not trying to be evasive, 
but the position I'm being considered for is the President's 
principal intelligence advisor, not his legal advisor. And 
there is legal counsel that I would go to if I were confirmed 
as DNI.
    But Senator, I appreciate the question about organizational 
changes. As you know, I'm not so presumptuous as to know that 
I'm going to be confirmed, so I haven't considered or talked 
about any sort of organizational changes.
    I want to make clear that I expect to have unfettered 
discretion to make all personnel decisions if confirmed as DNI. 
And I'll make them in the best interest of the IC to make the 
IC better. And I will certainly, as with everything, work with 
this Committee to keep it fully and currently informed.
    I want everyone to sort of remember that I'm being 
considered for this position, but I'm one of you right now as a 
member of an oversight committee. And America functions better 
when it's elective representatives are fully informed by the 
Intelligence Community, and I intend to do that.
    Chairman Burr. And with that, I'm going to bring to a close 
the second block of Members' questions and we'll move to the 
third block.
    Anybody who's asked questions is excused if they'd like to 
leave.
    Let me remind Members that when we conclude with this at 
12:00, we will reconvene in closed session at 2:00 in the 
Capital Senate Security Office and we will again be operating 
with blocks of time. There will be a conference room there for 
anybody that would like to sit, read intelligence products, 
listen to what's going on in the closed hearing, and then come 
in for their question period.
    With that, I recognize Senator Blunt.
    Senator Blunt. Thank you, Chairman. Congressman Ratcliffe, 
it's good to have you here. This job has gone vacant for too 
long. It's a critically important job. I'm glad you've been 
nominated.
    I've read with great interest the letter in the record that 
was given to us from former Attorney General Ashcroft. He's 
been a good friend of mine for a long time. I trust his 
judgment. I know you worked with him as a U.S. Attorney and 
also in a law firm that was formed after you both left the 
Justice Department. And his view of you, which he shared with 
me personally as well as in this letter, is significant.
    We have had a chance to visit about your work on the House 
Intelligence Committee, and I particularly appreciated your 
last comment about the importance of being fully open and an 
oversight committee like this one being fully informed.
    I would say that when we stood up this structure after 9/
11, I certainly anticipated a much smaller coordinating 
opportunity rather than the bureaucratic size that we see 
today. I hope when you have a chance to look at this, that you 
will look carefully at whether or not the structure as it has 
grown has really served the principal purpose of coordinating 
information, or if in some way it may have created yet one more 
stovepipe of information.
    I would like you to comment on your views, maybe as a House 
Intel Member, of just the size of DNI itself and if that size 
is one that you think is too big, too small, or just right.
    Congressman Ratcliffe. Senator, thank you for the remarks 
and association with former Attorney General John Ashcroft who 
is a great American.
    But I like you come into this position if confirmed with 
some preconceived impressions based on discussions I have on 
the oversight committee. And as Senator Collins leaves the 
room, I want to make sure you know one of the goals of the DNI, 
if confirmed, is to make sure that the ODNI and the DNI 
position are working exactly like Senator Collins and those who 
stood it up intended it. And so I had a chance to visit with 
her about it.
    Like you, I come in with the perspective that you have 
conversations that maybe indicate that there is too much 
bureaucracy and there is too much redundancy. Some redundancy 
is good, but if there are 17 agencies they don't need to be 
doing the same thing 17 times or purchasing the same things. 
And so it will be one of my immediate priorities to assess how 
the ODNI is functioning.
    Again, the goal of the ODNI is to make the IC better so 
that the IC can make you better and the President better and 
policy makers better. And so I do think that I want it to be as 
efficient as possible, but I will be thoughtful and talk with 
the heads of the intelligence agencies and elements to find out 
where they think that some of these things may just be 
unnecessary redundancies, and address those.
    Senator Blunt. You know, I think another question to ask, 
and you don't have to comment on this, but for you to ask, is 
as this agency has grown, have we let the other agencies not 
have the attention or the staff they needed as the whole 
universe of intelligence, U.S. intelligence, has grown. So much 
of it has grown, at this point--that was to be the central 
clearinghouse, the agency that coordinated information to be 
sure nobody was left out, and I would look at that.
    During the last 19 years we have very much been focused on 
violent terrorist extremists as the focus of so much of our 
intelligence efforts. Certainly that threat has not gone away, 
but it's also equally as certain that great power competition 
has emerged in ways that we wouldn't have anticipated even a 
handful of years ago. Talk a little bit about rebalancing the 
resources you have to continue to keep an eye on the threats 
that we have so focused on for almost two decades now, but also 
to rebalance into the great power competition that we see as a 
significant challenge for us today.
    Congressman Ratcliffe. Senator, great question and I 
appreciate you asking, because I have had that conversation 
with a lot of people about what I view as the greatest threat 
and the greatest threat actor. And I view China as the greatest 
threat actor right now. I mean, look at where we are with 
respect to COVID-19 and the role that China plays, the race to 
5G, cyber security issues. All roads lead to China there. And 
so one of the priorities, highest priorities, that I will have 
if confirmed as DNI is to make sure--again my background with 
regard to violent extremists--you know, that is a generational 
challenge that we will continue to deal with. We may forget 
about them, but they don't forget about us.
    But I agree with you in terms of making sure as we look at 
the national intelligence framework and whether we are 
committing enough resources to the rising power that is China. 
When you look at the initiatives that they have--Belt and Road, 
Made in China 2025, all of the military-civil fusion initiative 
where they literally want, by law, Chinese companies to collect 
intelligence. These are all spokes of the same initiative and 
that is for China to supplant us as the world's superpower and 
to be able to set standards around the world. And we very 
clearly don't want an authoritarian regime like the Chinese 
Communist Party setting standards in the world marketplace.
    And so I look forward to sitting down with you if confirmed 
to talk about how ODNI and the other 16 elements are dedicated 
to the rising threat that is China, which I view as our 
greatest threat actor.
    Senator Blunt. Well, certainly Russia is another great 
threat. Do you want to talk about that for just a second as I 
conclude my questions?
    Congressman Ratcliffe. You bet. Different just because you 
know--Russia, we are concerned with Russia in terms of anytime 
you have a large nuclear stockpile and they are certainly 
dedicated to sowing seeds of discord. We are most concerned 
with them with regard to election interference and making sure 
we have safe, secure, credible elections because that is what 
they have been focused on. And they have been, as I said 
earlier, they have been successful in sowing seeds of discord--
but not, fortunately, in changing votes or the outcome.
    But between the two to be real clear, I view China as the 
rising power, whereas Russia has an economy about the same size 
as the economy of my home State of Texas. So we need to be very 
concerned with them.
    Vladimir Putin is a very bad actor and so as DNI if 
confirmed, I will make sure that we balance appropriately where 
our resources are going with regard to both of those threats.
    Senator Blunt. Well thank you, Mr. Ratcliffe. Congressman, 
I look forward to supporting your nomination both here in the 
committee and on the floor, and you're working with us as you 
get this job.
    Congressman Ratcliffe. Thank you.
    Chairman Burr. Senator King.
    Senator King. Good morning, Congressman.
    First, I would like to start with a series of questions 
that were from the questionnaire, and I believe they can be 
answered with yes or no. You did not answer them thusly in the 
questionnaire, but I think they can be easily answered with yes 
or no.
    The first one is question 35.
    Would you ever ask, encourage, or support an intelligence 
professional adjusting his or her assessment to avoid criticism 
from the White House or political appointees?
    Congressman Ratcliffe. No.
    Senator King. Would you ever change or remove content in an 
intelligence assessment for political reasons or at the behest 
of political leadership?
    Congressman Ratcliffe. No.
    Senator King. Question 39: Would you consider an 
individual's personal political preferences to include loyalty 
to the President in making a decision to hire, fire, or promote 
an individual?
    Congressman Ratcliffe. No.
    Senator King. And question 39B: Do you commit to 
exclusively consider professional qualifications in IC 
personnel decisions without consideration of partisan or 
political factors?
    Congressman Ratcliffe. Yes.
    Senator King. Question C of 39: If you were to receive 
credible evidence as DNI that an individual was undermining IC 
objectivity and furthering a political agenda would you 
immediately remove that individual?
    Congressman Ratcliffe. Yes.
    Senator King. And D: Will you or any of your staff impose a 
political litmus test for IC employees?
    Congressman Ratcliffe. No.
    Senator King. Finally, if confirmed would you reassure your 
workforce that loyalty tests are not allowed with the IC?
    Congressman Ratcliffe. I would.
    Senator King. And if such occurs would you commit to 
informing Congressional Intelligence Committees and immediately 
stopping such efforts?
    Congressman Ratcliffe. I would.
    Senator King. Thank you.
    Next question. Can you give me a case where you have ever 
publicly differed with this President?
    Congressman Ratcliffe. Yes.
    Senator King. Please do, briefly.
    Congressman Ratcliffe. An example I can think of most 
recently was, I think it was October, the President's decision 
to withdraw troops from Syria. There was a resolution 
considered regarding that issue that I supported, that I think 
was referred to by some as a rebuke of the President. I think 
I'm right on the specifics of that.
    Senator King. Any other incidents?
    Congressman Ratcliffe. I'm sure there are. I don't recall 
any as I'm sitting here.
    Senator King. In your position as a Member of the House 
Intelligence Committee or as the nominee for DNI, have you seen 
any intelligence that finds with high confidence, or any 
confidence for that matter, that the coronavirus originated in 
a lab in Wuhan rather than the market?
    Congressman Ratcliffe. I have not.
    Senator King. Thank you. You testified----
    Congressman Ratcliffe. Can I?
    Senator King. Go ahead.
    Congressman Ratcliffe. I only wanted to caveat in the sense 
of because of the pandemic, I want to say that the last 
classified briefing I had was some time in--it's been a while 
since I've had a classified briefing on the coronavirus 
pandemic. That's the only thing I wanted to caveat.
    Senator King. That's exactly--that's the answer that I gave 
this morning myself.
    Congressman Ratcliffe. Okay.
    Senator King. And you, like me, you have not seen any 
intelligence product that indicates?
    Congressman Ratcliffe. I have not.
    Senator King. Thank you. You took the oath this morning 
from the Chair and said you will agree to appear and share 
information with the Committee.
    Will you appear before this Committee if the President or 
an official in the White House tells you not to?
    Congressman Ratcliffe. Of course.
    Senator King. And you will bring us--I think there's been 
some discussion of the worldwide threat hearing. You will----
    Congressman Ratcliffe. Again, a caveat. I'll just say----
    Senator King. You gave the right answer. If I were you, I 
wouldn't qualify.
    Congressman Ratcliffe. Then I'll just leave it alone.
    But the point was I want to make sure we were talking about 
to appear in connection with the worldwide threat hearing.
    Senator King. No, I'm talking about just generally, if this 
Committee requests your attendance to testify and the White 
House says do not go, will you honor the oath you took this 
morning here before this Committee?
    Congressman Ratcliffe. I will. I will. I'm sorry, I wanted 
to make sure that I understood the question properly.
    Senator King. Thank you. The President has stated that he 
feels that so-called enhanced interrogations such as 
waterboarding has value and produces valuable results. John 
McCain said repeatedly that it does not. Who do you agree with, 
McCain or the President?
    Congressman Ratcliffe. I follow the law. I'll always follow 
the law. And so what the law says----
    Senator King. Do you believe that waterboarding is a 
violation of the anti-torture law?
    Congressman Ratcliffe. My understanding that the law makes 
clear in several places that torture is illegal, and that would 
be the finding, I think, in the Army Field Manual. And----
    Senator King. So this has nothing to do with your personal 
opinion. You're simply saying: I'll follow the law, but if the 
law was changed to allow waterboarding or other forms of 
torture, would you say that was okay?
    Congressman Ratcliffe. I think the obligation that I have, 
Senator, is to follow the law. The Constitution and law of the 
country is the oath that I take in any role, as DNI, as a 
Member of Congress. I mean, I don't want to get into policy 
decisions about which the DNI should not be involved in. I'm a 
policymaker now, but you're considering me for a role where I 
would not be making policy or I would follow the law as 
legislators create laws or as the Supreme Court interprets 
those laws.
    Senator King. Thank you. One final question. If you were 
running for reelection and your campaign manager shared polling 
data which included crosstabs and detailed information about 
where your campaign stood with an agent of a foreign 
government, would you believe that was okay?
    Congressman Ratcliffe. No.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Congressman Ratcliffe, congratulations on 
your nomination.
    Let me follow up on Senator King's questioning. He'd asked 
if you had seen any intelligence that the coronavirus 
originated in one of the two labs in Wuhan, and you said no.
    Have you seen any intelligence that supports the Chinese 
Communist Party's claim that it originated in a seafood market 
in Wuhan?
    Congressman Ratcliffe. No.
    Senator Cotton. I presume you're aware that the respected 
scientific journal ``The Lancet'' published a study of Chinese 
scientists in January that concluded that in fact it did not 
originate in the market?
    Congressman Ratcliffe. I have.
    Senator Cotton. That more than a third of the original 
cases had no contact with the market whatsoever, including what 
they believe to be the first known case as well.
    Congressman Ratcliffe. I didn't recall that, but if that's 
what that reflects.
    Senator Cotton. Are you aware that to the best of our 
knowledge there's no evidence that bats of any kind, to include 
the horseshoe bat, was even sold in a food market?
    Congressman Ratcliffe. That is my understanding.
    Senator Cotton. So this----
    Congressman Ratcliffe. Just to be clear, the point I was 
trying to make is it's been a while, and through no one's 
fault, since I've had an updated classified briefing regarding 
the coronavirus pandemic.
    Senator Cotton. I understand, and I'm asking these 
questions not just to speak about the virus, but a more 
particular matter of intelligence analysis. Everything that we 
just discussed is not clandestine, collected information. It's 
not a national security secret. It is publicly reported in a 
journal like ``The Lancet,'' or in news sources, or so forth.
    Congressman Ratcliffe. Correct.
    Senator Cotton. Much of what we know about the virus is the 
result of publicly reported information, or social media 
evidence from Wuhan in the early days, and so forth.
    How critical is the role of that kind of unclassified 
public information in the analysis that our Intelligence 
Committee should be conducting?
    Congressman Ratcliffe. It's I think vitally important. I 
think one of the things that we're seeing is OSINT, or you 
know, open source intelligence, is increasingly valuable. And 
we need to find ways to make sure that we're collecting it and 
analyzing it. It's a huge--because it's large sets of data that 
we need to be processing there. And so it's a challenge, but 
it's a tremendous source of information. And should be utilized 
by the Intelligence Community going forward.
    Senator Cotton. I couldn't agree more. I think there's 
always a bias towards thinking if a secret is not stolen 
through clandestine means, then it's not valuable information, 
when all of these pieces of information--whether we're talking 
about Chinese coronavirus or what Russia is up to in Europe, or 
Iran's nuclear program--stitched together into a mosaic. And 
that mosaic usually is a question of circumstantial evidence 
that you can use common sense to reach the best conclusion--not 
direct evidence, not conclusive proof. Do you want to respond 
for the record?
    Congressman Ratcliffe. I was just going to say, to give you 
an example of how we might be sort of forward looking on this 
issue, open source intelligence. If we used open source 
intelligence tools, we may be able to get earlier warnings 
around pandemics like this, or viruses like this, as they're 
beginning.
    So those are the types of when I was referring to how the 
Intelligence Community can leverage open source information, 
that's what I was referring to.
    Senator Cotton. Now moving on to one of the Director of 
National Intelligence chief responsibilities, which is setting 
the priorities for the kind of intelligence our Nation needs to 
collect, last week the Acting Director of National Intelligence 
released a statement saying: the Intelligence Community will 
continue to rigorously examine emerging information and 
intelligence to determine whether the outbreak began through 
contact with infected animals or if it was the result of an 
accident at a laboratory in Wuhan.
    ``The New York Times'' subsequently reported that senior 
National Security Council officials urged the Intelligence 
Community to collect additional information to the extent 
possible on the origin and cause of the Wuhan pandemic. ``The 
New York Times'' and other media analysts have somehow 
suggested that would be inappropriate.
    Is it inappropriate for the President to set collection 
priorities on what he thinks is urgent national questions? And 
for you as DNI to drive those priorities as best you can, given 
the facts that our intelligence officers are able to gather?
    Congressman Ratcliffe. That would be appropriate.
    Senator Cotton. I think that would be completely and 
totally appropriate. That's exactly what we would expect the 
Cabinet or the President and his senior national security 
Cabinet Members to do.
    One final question I have. I've heard a lot of questions 
about this on both sides today. You're obviously a politician 
right now. You've got an R after your name. Some people have 
raised the question whether you can separate politics from 
intelligence. We've discussed in the past that this has been 
done successfully at times. If you look at someone like Leon 
Panetta who was a pretty partisan guy when he was in the 
Congress, and then he was Bill Clinton's chief of staff, was an 
outstanding director of the Central Intelligence Agency.
    Or if you look at from the other way. Take someone like Bob 
Gates, lifelong intelligence professional, but since he's left 
the government it's pretty clear to everyone that he's a 
Republican, and he's supported Republican candidates for office 
since he got out of office, even though he served in a 
Democratic Administration.
    So I just want to point out even though those are not the 
DNI job, but the Director of Central Intelligence job, they 
have a similar need for separating politics from intelligence, 
and that this is something that can be done and that has been 
done in the past. And I wanted to see if you have comments 
about those precedents or how you'll separate politics from 
intelligence.
    Congressman Ratcliffe. Well, I appreciate the question, 
Senator, and earlier I talked about the fact that I very much 
love representing the people here in Congress, but I held an 
apolitical job before as U.S. Attorney, one where I represented 
the United States in neither party and kept both parties out of 
everything that I did.
    And so I have done that and done it successfully and been 
highly regarded for the way that I've approached that. And I 
enjoyed that and it's one of the reasons that I'm going from a 
safe District and asking you all to consider me as the nominee. 
I have every--not just every intention--but every confidence 
that I will do exactly as I'm telling you, that I will be 
entirely apolitical as the Director of National Intelligence.
    Senator Cotton. Thank you very much.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you, Mr. Chairman.
    Congressman, the U.S. Intelligence Community has an 
important role in warning our leaders about pandemics like 
COVID-19, because outbreaks, of course, are not just a public 
health matter, but also a matter of national security.
    Based on public statements and reporting alone, do you 
believe that President Trump has accurately conveyed the 
severity of this threat of COVID-19 to the American people?
    Congressman Ratcliffe. Are you saying presently?
    Senator Harris. We are in the midst of the pandemic 
presently, correct.
    Congressman Ratcliffe. So repeat the question because I 
guess I'm misunderstanding. I'm sorry. Has he accurately 
reflected the status of the pandemic?
    Senator Harris. Conveyed the severity of the pandemic, yes. 
Has he accurately conveyed the severity of COVID-19 to the 
American people?
    Congressman Ratcliffe. I believe so.
    Senator Harris. You do? And according to a April 27, 2020, 
``Washington Post'' article, President Trump received upwards 
of a dozen briefings on COVID-19 from the U.S. intelligence 
agencies between January and February of this year, during 
which time he repeatedly denied the severity of the threat.
    On January 22, he said, quote, we have it totally under 
control.
    On February 22, or 26, he insisted that the number of cases 
would be, quote, close to zero within a number of days.
    As recently as March 10, the President stated, quote, just 
stay calm, it will go away.
    And I'm sure you're familiar with the most recent reports, 
including today, that we may see as many as 3,000 deaths a day 
in America because of COVID-19.
    What would you do, if confirmed, if you believe the 
President was not taking the warnings from the Intelligence 
Community seriously?
    Congressman Ratcliffe. Senator, the intelligence that I 
would deliver as the Director of National Intelligence--the 
statements that, you know, the President said this--none of 
those things will influence the intelligence that I deliver to 
this Committee and the Committee in the House and Members of 
Congress.
    I made the point in my opening, this is one of the highest, 
one of the first priorities is getting answers to the American 
people, who deserve answers as you do as a Member of the 
oversight committee, and I do if I'm still a Member of the 
oversight committee.
    And whatever those answers are, Senator, you will get them. 
They will not be shaded, regardless of what anyone says. I will 
say this, one of the things that I've learned as a nominee is 
that members of the Intelligence Community will tell you things 
that they wouldn't tell you as an overseer of intelligence. And 
the thing that I want to make clear to all the Members here is 
the concern of the men and women in the Intelligence Community 
is they don't want to be leveraged by anyone on either side of 
the aisle.
    Senator Harris. Well, with all due respect, Sir, in my 
experience being on the Intelligence Committee in the United 
States Senate, the Intelligence Community has been pretty 
forthright with us when we ask them questions in our role of 
oversight. So what exactly are you referring to?
    Congressman Ratcliffe. I'm just saying the perspective as--
the conversations that I've had over the past few months as I 
have been considered for this, I've had exposure to a lot of 
Intelligence Community members who have just expressed the 
sentiment that they want to do their job, they want to deliver 
the best intelligence, and they don't want to be leveraged from 
anyone on either side of the aisle. That was the only point. I 
wasn't directed at you, Senator. At all.
    Senator Harris. Oh no, I didn't take it that way.
    Congressman Ratcliffe. Okay.
    Senator Harris. And how long have you been serving on the 
House Intelligence Committee?
    Congressman Ratcliffe. A year and five months, I guess.
    Senator Harris. Okay, you were appointed to that Committee 
in 2019, correct?
    Congressman Ratcliffe. Yes.
    Senator Harris. Okay. And then, in our fourth report on 
Russian interference into the 2016 election, this Committee has 
once again reaffirmed that unanimous consensus of 17 
intelligence agencies that Russia interfered with the aim of 
benefiting then-Candidate Trump's political campaign.
    However, you and other allies of the President have sought 
to cast doubt on the consensus conclusions, raising concerns 
for many of us about your ability to be unbiased, which is a 
necessity to head the DNI.
    Will you accept the intelligence provided to you by the men 
and women of the Intelligence Community, no matter your 
personal beliefs? And do you accept the findings of the 
Intelligence Community as it relates to the Russian 
interference in the 2016 Presidential election?
    Congressman Ratcliffe. So to your first question, I will 
accept.
    To the second question about specific to the Russia 2017--
--
    Senator Harris. 2016.
    Congressman Ratcliffe. I'm sorry. 2016. Earlier I made the 
point that I respect both Committees. I think there's a 
difference of opinion between the House Intelligence Committee 
and this Committee in terms of one specific finding. As you 
pointed out, I was not on the House Intelligence Committee at 
the time of that. I respect both Committees, but I haven't seen 
the underlying intelligence with respect to that one finding.
    Senator Harris. Thank you, Mr. Chairman.
    Congressman Ratcliffe. Thank you, Senator.
    Chairman Burr. Senator King, did you have a question?
    Senator King. Yes. You touched on a point with Senator 
Cotton that I'd like to follow-up that I think is critically 
important, and the term I use is conclusion shopping. It's in 
the nature of any executive to want to be told that the 
intelligence supports whatever policy direction they want to go 
in, and this is a constant struggle. It goes back--I don't care 
whether the President is John F. Kennedy in Vietnam, or Lyndon 
Johnson in Vietnam or George W. Bush with weapons of mass 
destruction. This is a human nature problem.
    The king said: Who will rid me of this meddlesome priest? 
And a couple of knights went and killed Beckett. The President 
doesn't have to give an order. That's my concern and that's 
where it worries me that the President, apparently, has been 
pressing the Intelligence Community to find what he wants them 
to find. The question should be: Where did the virus come from, 
not: don't you think it came from a lab? Do you see the 
distinction I'm trying to make and why this is so crucial?
    And it's crucial to the President him or herself, because 
if they taint the intelligence before it gets to them, they're 
going to make bad decisions. And we're protecting the 
Presidents themselves by guarding against this human nature 
problem. Every Executive wants to hear what they want to hear. 
Every person that works for that Executive wants to tell the 
boss what they want to hear.
    Talk to me about this concern. I think this is a critical 
issue, particularly with the President who is so strong-willed 
and has indicated in the past a strong desire to press the 
Intelligence Community to tell him what he wants to hear.
    Congressman Ratcliffe. Well, Senator, I appreciate the 
question and I appreciate the fact that we had a chance to 
visit about this on the phone. And you've made it clear that 
this is one aspect of politicization of the Intelligence 
Community. Sometimes that happens even unintentionally.
    Senator King. Absolutely.
    Congressman Ratcliffe. And I share that sentiment or that 
concern generally, and I've tried to make it clear in our 
conversations, or our conversation about that, that I agree 
with the sentiment and how I intend to approach this. I can't 
comment on things that haven't happened yet. I'm trying to make 
clear my approach to how I will deal with the issue, and I 
think I've been very clear that what anyone wants the 
intelligence to say won't impact the intelligence they get from 
me that I deliver. I don't know----
    Senator King. I would suggest, and I'll close with this, 
that if you give information to the President that isn't 
accurate, that isn't unvarnished, that is an act of disloyalty 
to the President, let alone to the Constitution. Thank you, 
Congressman.
    Congressman Ratcliffe. Thank you.
    Senator King. I appreciate it.
    Chairman Burr. Thank you. Thank you, Senator King. Before 
we transition to our last block today, I want to remind Members 
we'll get together at 2:00 for a closed session in the SVC, 
Senate Intelligence Committee. I want to turn to myself for one 
additional question for the Congressman and then I will turn to 
the Vice Chairman for one additional question before we turn to 
our last block.
    Congressman, your experience on the House Intelligence 
Committee has illustrated the importance of comprehensive 
oversight. Part of that oversight is being able to dig into the 
finished intelligence products. For those of us that have been 
on the Intel Committee prior to 9/11, we understood what 
processing raw intelligence was really like because we didn't 
have finished product.
    Do you commit to the Committee that in the rare instances 
that the Committee asks for raw intelligence to better 
understand the analytical conclusions that have been 
determined, that you will provide that raw intelligence for the 
Committee?
    Congressman Ratcliffe. I will as appropriate, and I am 
caveating just to the standpoint of within my authority and 
with due regard for the sources and methods at that time.
    Chairman Burr. Absolutely. Lastly, technological innovation 
is increasingly happening overseas. The Vice Chairman and I 
have been incredibly active on the issue of 5G, not because of 
the jurisdiction of the Committee but because the Intelligence 
Committee both in the House and the Senate is unique in the 
fact that we see trends before the policy committees do. And we 
also see the tech side of it, the technology side of it, in a 
way that would take other committees of jurisdiction months if 
not years to get to the same understanding without the degree 
of clarity that the Intelligence Committee gets it.
    What is your view on how the Intelligence Community should 
engage with the private sector on technological innovation?
    Congressman Ratcliffe. Well, I think it is a great question 
that ties into what you said--the issue of 5G and where that 
race stands right now, and where rising powers like China are 
with regard to the development of 5G global networks. Our 
ability to ensure that interconnected global networks are safe 
really will demand, consistent with the 5G strategy, and 
Senator Cornyn's bill that is now a law with regard to that 
that we, that we work harder to work with the private sector 
and take advantage of the technology expertise that we need 
there to make sure that we are first in all of these places.
    When we talk about the emerging technologies, Chairman, we 
have the best intelligence enterprise in the world. To continue 
for that to be the case we have got to continue to innovate and 
we have got to be first. We have got to be first and best on 
cyber issues, on AI, on ultimately on quantum. But 5G is where 
we are with regard to that issue now, and it is the pathway to 
being first in those areas. And so again, it is something that 
is vitally important and that is my perspective.
    Chairman Burr. Thank you.
    Vice Chairman.
    Vice Chairman Warner. Thank you Mr. Chairman and I hope 
you'll give me the discretion to get in two quick questions.
    One, the first is, I think a couple of my colleagues have 
raised some of the questions about the President's comments 
about his notion that there is somehow a deep state in the 
Intelligence Community or within law enforcement that is 
somehow going against his wishes.
    Have you ever made any statements about a deep state within 
the Intelligence Community? Or statements that----
    Congressman Ratcliffe. Not that I am aware of, Senator. The 
only reason I'm hesitating is sometimes you are asked questions 
by reporters about using terms and so it is not a term that I--
--
    Vice Chairman Warner. Have you made any statements saying 
that you believe--or implying that the Intelligence Community 
is somehow acting----
    Congressman Ratcliffe. No.
    Vice Chairman Warner [continuing]. Inappropriately to 
target the President?
    Congressman Ratcliffe. No. No.
    Vice Chairman Warner. Do you have any view on how the 
Intelligence Community professionals, what kind of effect that 
would have on the morale of folks who are hearing these kinds 
of accusations?
    Congressman Ratcliffe. The effect on morale?
    Vice Chairman Warner. The effect if the Commander-in-Chief 
is making comments somehow impugning the integrity of the 
Intelligence Community professionals, that they are somehow 
part of some secret cabal acting against him. Would you agree 
that has some negative effects upon the Community's esprit de 
corps and morale?
    Congressman Ratcliffe. My impression, Senator, from--I can 
only speak to the conversations that I have had, without 
getting into specifics. I think the sentiment that I have heard 
from the President is it's not Intelligence Community writ 
large, it is specific individuals and pointing to, for 
instance, misuse of intelligence authorities by certain 
individuals and--
    But again, my focus is I want to look forward, not back. I 
think that is one of the reasons I want this opportunity. All 
of this underscores the point that the relationship isn't what 
it should be across the board between the Intelligence 
Community, the President, and Congress, and its oversight 
committees. And again it may be difficult, but I would like the 
opportunity to strengthen that relationship for the reasons 
I've talked about earlier.
    Vice Chairman Warner. The Chairman is giving me my 
discretion so I won't ask. I want to come back later and ask 
you a question about NATO. But I would simply point out that it 
is somewhat unique to me that not only has the President made 
these comments about kind of the long-term professionals, but 
literally every person, I think without exception, that this 
President has appointed for Senate confirmation within the 
Director of National Intelligence has been fired or removed or 
pushed out. My conclusion, maybe not shared by all of my 
colleagues, but because all of those individuals when they took 
on these positions did what I thought was right, which is being 
willing to speak truth to power and that cost them their job. 
If you get this job, I hope you will continue in the vein of 
the Dan Coatses and the Sue Gordons and the Joe Maguires and 
Andrew Hallmans who I think honored their commitment even at 
the cost of their job.
    Thank you Mr. Chairman.
    Chairman Burr. In an effort to get back on time let me 
explain to Members, I know some of you came in and you thought: 
Why do I have to sit down there? For you to sit up here we have 
to wipe down every seat of the person that was already in it. 
So to accommodate the time blocks----
    Senator Bennet [inaudible].
    Chairman Burr. Not exclusively you, Senator Bennet, but 
this afternoon when we meet at 2 o'clock for the closed session 
we will be wiping down the seats because we don't have the same 
accommodations in the Senate Intelligence Committee.
    With that, I recognize Senator Cornyn.
    Senator Cornyn. Congressman Ratcliffe, this morning when I 
said a few words of introduction, I alluded to the unique 
nature of the job to which you have been nominated. And I think 
what I would like to hear from you, and forgive me if you have 
already talked about this extensively, but how do you view the 
transition from the adversarial process either as a prosecutor 
or as a Member of Congress battling over public policy issues 
or maybe conducting vigorous oversight into the role of the 
Federal Government?
    How do you make that transition to become this head of the 
Intelligence Community and be willing and able to provide 
unvarnished intelligence to policymakers?
    Congressman Ratcliffe. Senator, I would say I view it as a 
welcome transition, hopefully. Again, I have loved serving the 
people of my District and serving in Congress. But again, 
respectfully, when I was at the Department of Justice there is 
something about representing the United States, standing up to 
represent the United States, where you have the ability to say 
politics will play no part. I won't let party allegiance play 
any factor in the work that I do, is very analogous to this 
position and it is one that I very much look forward to.
    The mission is too important. I look at the threats that we 
are facing around the world and what is happening and what we 
are living in right now with this pandemic. And we will only 
continue to be the world's superpower if we have the best 
intelligence enterprise, and it has to be one that's 
apolitical. It has to be one that gives the unvarnished truth, 
as Senator King has said repeatedly, without shading and 
without consideration for what anyone wants that intelligence 
to say.
    And I've been in that role, and that's what I would offer 
in terms of reassurance, in terms of my time at the Justice 
Department and leading, again, a federated enterprise, not just 
to the scope and size of the Intelligence Community, but a U.S. 
Attorney's office is significant. To put it in perspective 
there's 435 Congressional Districts the country is divided up 
into. There's 100 United States Senators. There's only 93 
Federal Districts. And in my case, it was 35,000 square miles, 
more than 3 million residents within that, and so operating, 
and coordinating, and integrating in pursuit of national 
security priorities like the prevention of terrorism I think is 
good training for this.
    But it's something that I found, again, that I enjoyed 
doing, and I look forward to the transition on a larger scale 
at a time that I think our country really needs it, and again, 
I think that I'm well-qualified to do.
    Senator Cornyn. Congressman Ratcliffe, my friend the 
Ranking Member Senator Warner frames this as speaking truth to 
power, but let me frame it a little differently.
    Do you have any problem in telling the President the truth 
about what our Intelligence Community has produced to allow him 
to then make the best decisions in consultation with his team?
    Congressman Ratcliffe. Respectfully, Senator, I don't have 
a problem telling anyone--the President, Members of this 
Committee, anyone that would be a consumer of intelligence and 
entitled to see it, whether as an overseer--in whatever 
respect. The intelligence has to speak to exactly what the men 
and women who are doing the collection and analysis of it--we 
are all better served with the best, unvarnished intelligence, 
and that is truth to power, and I look forward to doing that to 
anyone.
    Senator Cornyn. And what's the danger if you somehow shaded 
or nuanced the information for the policymakers, including the 
President of the United States?
    Congressman Ratcliffe. Everything that we, the Intelligence 
Community does, is designed to inform all policy makers, the 
President, the National Security Council, our military leaders, 
and Members of Congress to have the best information to make 
our national security decisions. So to give anything other than 
the best information is to jeopardize our national security. 
It's something I just won't do.
    Senator Cornyn. In closing, I was glad to see our mutual 
friend, Congressman Will Hurd, write an Op-Ed piece supporting 
your nomination. Will, as we both know, served in the CIA 
before he came to Congress. He's steeped in these issues like 
very few are, and I was glad to see that vote of confidence.
    Thank you, Mr. Chairman.
    Congressman Ratcliffe. Thank you again, Senator, for your 
remarks this morning.
    Chairman Burr. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. I very much 
appreciate the opportunity to ask these questions.
    Congressman, it's nice to see you.
    Congressman Ratcliffe. Good to see you, Senator.
    Senator Bennet. Senator Cornyn this morning read a really 
great letter from Attorney General Ashcroft, and you should be 
very pleased about how he commended you.
    In the letter, he said--this is Attorney General Ashcroft--
he said: Integrity is the indispensable imperative for 
intelligence, the best friend of national security. And 
national security is the singular portfolio most allergic to 
the infection and devaluation that results from inaccuracy and 
distortion. For high-quality decision-making, sound 
intelligence must never be contaminated by personal bias or 
political predisposition.
    Do you agree with that statement?
    Congressman Ratcliffe. I do.
    Senator Bennet. Why, to follow up on Senator Cornyn's 
question, why is it so important that sound intelligence, above 
all else really, must never be contaminated by personal bias or 
political predisposition?
    Congressman Ratcliffe. Simply because it would jeopardize 
national security decisions.
    Senator Bennet. Can you elaborate?
    Congressman Ratcliffe. Well, again, what the Intelligence 
Community does--the best men and women in the world doing the 
best collection, the best analysis--it has to be delivered 
accurately so that you as a legislator, the President, as the 
Commander-in-Chief, our military leaders advising him--have the 
best information. And if it's shaded, or colored, or changed or 
impacted at all, that means you don't have the best 
information, which means you're not making the best decisions.
    Senator Bennet. I agree with that. And so do you think that 
in a situation where you have leadership in this government 
that seems biased or predisposed to an outcome that's not 
supported by the intelligence, and that there is risk to the 
jobs of people in the Intelligence Community who could report 
that accurately, like let's say in North Korea, if somebody 
delivers bad intelligence, somebody that the Great Leader 
wouldn't want to hear, and bad things happen to a person there, 
can you see how that would distort potentially the work of the 
Intelligence Community?
    Congressman Ratcliffe. Yes.
    Senator Bennet. And will you protect the Intelligence 
Committee at all costs?
    Congressman Ratcliffe. Yes.
    Senator Bennet. Including at the cost of your own job?
    Congressman Ratcliffe. Yes.
    Senator Bennet. I appreciate that, because I think your 
job, if you're confirmed, is to enable the Intelligence 
Community professionals to do their job, which all of us need 
them to do, not just because we're on this Committee but 
because we're American citizens----
    Congressman Ratcliffe. I agree.
    Senator Bennet [continuing]. Patriots, and we love this 
country.
    Congressman Ratcliffe. I agree.
    Senator Bennet. And they need to be able to do it without 
fear of political reprisal. And we face a situation now--you're 
inheriting an agency where the President fired the IC Inspector 
General, Michael Atkinson, because he didn't like the way the 
IG did his job. How are we going to undo that? How specifically 
are you going to deal with the impact of the Inspector General 
being fired because the President disagreed with the way he did 
his job? He did his job according to the law. Do you think 
there's collateral damage as a result of an action taken like 
that?
    Congressman Ratcliffe. Well, I don't know until I'm 
confirmed what the reaction is, you know, within the Community.
    Senator Bennet. What would you suspect it would be?
    Congressman Ratcliffe. Well, I honestly don't know what the 
interpretation--to your point about the Inspector General, 
again I don't want to relitigate issues, but----
    Senator Bennet. I don't think this is relitigating issues. 
This is what the President of the United States is projecting 
to the men and women of our intelligence agencies. In 
nominating you, Congressman, the President said the 
intelligence agencies have run amok. That was in the context of 
nominating you. That's this hearing.
    Do you think the intelligence agencies of the United States 
have run amok?
    Congressman Ratcliffe. No.
    Senator Bennet. Do you think that there is an effect on 
morale among the men and women of our intelligence agencies 
when the President of the United States says they've run amok?
    Congressman Ratcliffe. Again, I think I tried to address 
this earlier.
    Senator Bennet. I heard the answers earlier, by the way.
    Congressman Ratcliffe. Okay.
    Senator Bennet. But I'm asking it again because I don't 
think you addressed it.
    Do you think there's an effect on morale when the President 
of the United States describes the Intelligence Community as 
having run amok and that's why he's nominating you?
    Congressman Ratcliffe. I hope not.
    Senator Bennet. Oh, you hope there isn't an effect?
    Congressman Ratcliffe. Right.
    Senator Bennet. Do you think the intelligence agencies of 
the United States are running amok?
    Congressman Ratcliffe. No.
    Senator Bennet. Do you think it will be your responsibility 
if you're confirmed for this position when you disagree with 
the President on something so important as whether our 
intelligence agencies have run amok that you will say so on the 
public record?
    Congressman Ratcliffe. As I have said, I think many times, 
Senator, it doesn't matter what the President says or what 
any--Nancy Pelosi, Mitch McConnell----
    Senator Bennet. I heard you say that before. I think there 
is no equivalent between the Chief Law Enforcement Officer of 
this country, the Commander-in-Chief, saying what he says and 
with all respect to the people around this table, what a 
politician in Congress might say, although I will say I think 
there are constructive ways of serving in Congress and 
unconstructive ways. This idea that we're accepting that people 
are just going to be bitter partisans because they're in 
Congress--I actually don't accept that. I think it reflects 
poorly on us when we do. But I still would like to have an 
answer to the question. If you disagree--if the President said 
tomorrow that the intelligence agencies in this country have 
run amok, would you publicly disagree with what the President 
said?
    Congressman Ratcliffe. Nothing the President says will 
impact the delivery of the intelligence I give.
    Senator Bennet. That's not the question that I asked.
    Congressman Ratcliffe. Would I--
    Senator Bennet. If the President says this afternoon that 
the intelligence agencies in this country are running amok, 
will you publicly disagree with the President?
    Congressman Ratcliffe. I will give the President my best 
intelligence unvarnished. I don't know if I'm not--we're not--
I'm not understanding how I'm not answering----
    Senator Bennet. I think that that would meet the Ashcroft 
test. I think that if you couldn't do it without--without--if 
you couldn't bring yourself to say that the men and women of 
the intelligence agencies communities are not running amok, I 
don't think you meet the test.
    Congressman Ratcliffe. I'm trying--just to be clear, 
Senator, I don't think that the men and women of the 
Intelligence Community are running amok.
    Senator Bennet. Thank you, Mr. Chairman.
    Chairman Burr. Thank you. I would note that he said earlier 
to your question that he did not believe they were running 
amok. I think we were just having a----
    Congressman Ratcliffe. I did.
    Chairman Burr. We're just having a disconnection on what--
--
    Congressman Ratcliffe. And I'm sorry if I misunderstood.
    Chairman Burr [continuing]. What the thought was.
    Senator Sasse.
    Senator Bennet. Thank you. Thank you, Congressman.
    Congressman Ratcliffe. Thank you.
    Senator Sasse. Thank you, Mr. Chairman. Congressman, 
congratulations on your nomination. Senator Cornyn underscored 
the Will Hurd op-ed. I think it's very important and I hope 
that folks here read that as well. Congressman Hurd is 
obviously widely respected on these issues.
    Thanks for the time that we had over the last few weeks. In 
the classified section, I'm going to ask you some more 
questions to press you on whether you think the ODNI works 
right now, whether it's a functioning bureaucratic layer or 
whether it's an encumbrance. Whether the post 9/11 reasons that 
it was created are actually being advanced.
    But one of the specific pieces of that then we'll talk 
about in the classified setting that I wanted to unpack more 
fully here is--you know it's my view there's no more pressing 
national security threat the United States faces than the next 
decade of the tech race with China.
    And all 17 of our intelligence agencies, but especially the 
CIA and the NSA, are getting that message and they're ramping 
it up. But we've been talking about a pivot to China for 10 or 
15 years in this country and I think the agencies are still 
slow to devote sufficient mind share, money, personnel, 
etcetera, to the China threat.
    So in this public setting, a rare thing for the 
Intelligence Community, where you get to speak directly to the 
American people, can you explain what that Made in China 2025 
initiative is? And why China is pursuing it and whether the 
American people should be concerned?
    Congressman Ratcliffe. Sure. Thanks for the question, 
Senator. And you and I have talked, and earlier I identified 
China as the greatest threat that we face--the greatest threat 
actor that we face moving forward--for the exact reasons that 
you talked about. Made in China 2025 is one of many initiatives 
that the Chinese government--the Belt and Road initiative, the 
military-civil fusion initiative, all initiatives of that 
same--all spokes of the same initiative for China to supplant 
us as the global power in all respects.
    And so, it's why, I think, you and I agree that China is 
the rising threat and why we have to look at the national 
intelligence policy framework and our budgeting and our 
resource allocation to make sure that we are dedicating towards 
all of these different initiatives where an authoritarian 
regime wants to set the marketplace rules as they do with Made 
in China 2025. Where they want Chinese companies dominating 
industry across 10 different sectors, just as they want with 
the military fusion. Chinese companies gathering and collecting 
intelligence and sharing it with the Chinese Communist Party.
    Whereas, with Belt and Road, they want to dominate all of 
the hubs for trade routes and telecommunications. All of these 
things are China trying to essentially supplant free 
marketplace standards and values like liberty and free speech 
and all the things that we have, with authoritarian values that 
are reflected in some of the things that are happening in this 
COVID-19 pandemic.
    Senator Sasse. Before we get to the way they're using 
coronavirus and COVID, just stay for a second stay for a second 
at the Chinese Communist Party's use of tech and maybe 
emphasize AI in particular. How do the Communists who lead 
China--and to be clear, when U.S. businesses pretend that there 
is a public-private sector distinction in China, they are 
exaggerating--there is not much of a public-private sector 
distinction in China. But it's understandable both because U.S. 
companies want those markets--1.4 billion people and 400 
million are middle-class. There are more middle-class people in 
China than in the U.S. Of our 325 million, only about 250 
million are middle class. So there are a lot of consumers in 
China. It makes that U.S. producers would be interested in 
having access to those markets.
    But also, it's important for us to always underscore that 
our opponent here is not the Chinese people. Our opponent is 
the communist leadership of China. But what is the Communist 
Party trying to do with tech and with AI in particular?
    Congressman Ratcliffe. So, I'll use an example. I'll start 
with 5G because 5G leads to AI. AI leads to quantum. And to 
your point about where the Chinese Communist Party stops and 
starts, it's hard to tell with a company like Huawei. And if 
Huawei has an obligation to share information, under Chinese 
law with the Chinese Communist Party, and they are creating 
global networks and our information is going over those lines, 
and our allies that we are sharing information with, that's 
jeopardizing our information, that's jeopardizing our troops. 
All of these things are basically put at risk with respect to 
that.
    And so this is just why you are so correct, Senator, in 
terms of making sure that we are balanced in terms of where we 
are investing in terms of the global threat landscape 
pandemic--5G, AI. I don't want to say all roads lead to China, 
but a lot of them do.
    Senator Sasse. What are the technical fields that you are 
most concerned about them being at or equal to us in terms of 
their long-term plotting against us? A generation--I think Eric 
Schmidt, the former executive chairman of Google, regularly 
talks about a tech generation as being 18-ish months.
    What technical fields are you most concerned about their 
near parity or rival with us?
    Congressman Ratcliffe. Yeah, I mean just in terms of the 
point, cybersecurity generally tying in. I mentioned 5G, but 
one of the things that I'm most concerned about is investment 
towards quantum computing. We have with the NSA, we have the 
best code makers and breakers in the world. General Nakasone, I 
think you and I agree, is a national treasure.
    But if China gets to quantum first, we are in trouble. And 
so that, for me, was one of the--when we look at investments 
and looking forward and the challenges that we face, and the 
fact that China is investing more towards those technologies 
than the United States presently, we need to rebalance.
    Senator Sasse. I'm going to give it back to the Chairman 
here, but I just want to underscore the point you just made. 
I'm a small-government guy, but we are radically under 
investing and a lot of the fields that you just mentioned. 
Quantum. Paul Nakasone is an absolute national treasure, but 
the team he leads at the NSA, lots of their work is made 
obsolete if the quantum race is won by China--and we are under-
investing in that space.
    Thanks. I look forward to the classified time this 
afternoon.
    Congressman Ratcliffe. Thank you.
    Chairman Burr. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Welcome, 
Congressman.
    Congressman Ratcliffe. Thank you.
    Senator Reed. In your view, have we made progress in 
reversing North Korea's nuclear proliferation and nuclear 
development?
    Congressman Ratcliffe. I view North Korea as the same 
danger that they have been. I understand and I appreciate the 
diplomatic negotiations that are taking place and I hope that 
that there might be some concessions about their nuclear 
weapons in exchange for sanctions relief, but I can't address 
whether or not we made progress with respect to that or not, 
given the information that I've been privy to at this point. 
Perhaps if confirmed as DNI and I have a chance to visit with 
Secretary Pompeo, because I think there's a diplomatic piece 
here that I don't know--that I can't speak to--that I don't 
know the answer to.
    Senator Reed. Changing subject now for Iran, were they in 
compliance with the JCPOA when the President withdrew?
    Congressman Ratcliffe. I'm not sure. I might have to--I 
don't know technically if they were out of compliance at the 
time.
    Senator Reed. Well, since that time, do you think their 
activities have become more malign since the withdrawal by the 
United States of the JCPOA?
    Congressman Ratcliffe. I think Iran has become increasingly 
desperate as a result of the maximum pressure campaign, and I 
think that that's reflected in the fact that we see more 
provoking activity from them. You know, when you talk about 
Iran, you have to really look across--you're talking about 
Yemen, you're talking about Syria, you're talking about their 
proxies around--it's a regional issue and they are getting more 
aggressive everywhere because I think that they are 
increasingly more desperate.
    The internal strife that is going on in that regime one of 
the common ways to deal with the internal conflict that is 
happening is to try and coalesce around an outside adversary. 
And the U.S. and our interests in that region provide that. 
That is how they are trying to maintain control. I will say 
this, Senator, I think that this is one of the things when I 
talk about the impacts of a COVID-19 pandemic where in places 
all around the world, but in the Middle East, where you already 
have social unrest and a chance for upheaval, those conditions 
can get sharper where you have what we believe is 
underreporting in Iran with respect to the impact of COVID-19.
    Senator Reed. But from your comments, the maximum pressure 
campaign has made them more hostile, more aggressive, and more 
disruptive.
    Congressman Ratcliffe. I think they are more desperate is 
how I would characterize it, and what they are trying to do 
from my perspective is to leverage the international community 
to provoke something that draws it into something that might 
provide relief from the crippling sanctions that they are 
under.
    Senator Reed. Let me change the subject to something that 
has been discussed several times here, that is election 
security. I believe, correct me if I am wrong, you would 
concede that in 2016 the Russians were involved.
    Congressman Ratcliffe. Yes.
    Senator Reed. In 2018, the Russians were involved.
    Congressman Ratcliffe. Yes.
    Senator Reed. In 2020, this election, they are involved.
    Congressman Ratcliffe. Yes.
    Senator Reed. The Senate Intelligence Committee on a 
bipartisan basis concluded that in 2016 they were in favor of 
supporting President Trump and in disfavor of Secretary Clinton 
and taking steps to promote one and to deter the other.
    Yet in your written response to the Intelligence Committee, 
you did not publicly commit to notifying the American public 
when you had critical information of Russian involvement. And I 
think as a fundamental aspect of democracy, people should know 
when they go into a voting booth who is doing what and why 
candidates are being supported by whom. That is something that 
goes back, I think, to the beginning of this democracy. And yet 
you would not commit to that public notification. You instead 
mentioned the need to safeguard the confidentiality interests 
of the Executive Branch, which is basically to cover the 
President's position. Is that your position?
    Congressman Ratcliffe. I am not sure of the question. I 
have answered, I think, 150 different questions. I want to be 
real clear about Russia and other countries, but Russia in 
particular. I agree with the way you have--they interfered 
2016, 2018, 2020. They are going to continue to do it. I am for 
safe, secure, credible elections and will do everything I can 
as DNI to ensure that they are not successful. So I don't know 
the question and answer in specific that you are referring to, 
but if I need to elaborate or clarify----
    Senator Reed. Well, I think you should review your written 
responses because the quote is: Safeguard the confidentiality 
interests of the Executive Branch will be considered, which 
sounds a lot like the President comes first and if it doesn't 
really bother him, then I will let it go.
    Congressman Ratcliffe. Well that was certainly not my 
intent, and I will reiterate that again, but I think I made 
clear throughout----
    Senator Reed. So you will publicly commit to disclosing to 
the American people if the Intelligence Community concurs with 
high confidence that the Russians are involved? And the 
Russians are involved in promoting a certain candidate?
    Congressman Ratcliffe. That is the--if that is the 
conclusions of the Intelligence Community, if I am confirmed as 
DNI? Is that your question?
    Senator Reed. Yes, Sir.
    Congressman Ratcliffe. Yes.
    Senator Reed. Thank you. Thank you Mr. Chairman.
    Chairman Burr. I thank the Members. This brings to a close 
the public session.
    Congressman, let me say to you this point is not to solicit 
an answer, it is to create a thought process as we venture down 
this road of pandemic. I for one believe that the private 
sector will look very different when we come out on the other 
end as companies assess productivity from work at home, the 
need for high-rise office buildings crammed full of people, the 
way we interact, I think, will change. And the private sector 
is very capable of making those assessments and accomplishing 
that type of change.
    I would suggest to you that when you are confirmed, now is 
a great opportunity to begin to think about not just 
reorganization of the DNI shop, but reorganization of the 
Intelligence Community reflective of what Senator Sasse said 
about technology. It is not just about funding technology to be 
competitive. It is creating a model that actually generates the 
type of breakthroughs that we know we need for 5G, AI. These 
Members have heard the Vice Chairman and I talk many times. If 
this were 20 years ago and we were faced with a 5G issue 
getting started late, we would be with our Five Eyes partners 
throwing everything on the research bench--the best and the 
brightest working together--and we would create something far 
superior to what Huawei had, and that is how we would win the 
5G war.
    It's not too late. But we have got to begin to think like 
that throughout the whole of the IC. Just because we have done 
it one way for 50 years doesn't mean that the future 
necessarily means that we have got to do it that way. And I 
think we have got an IC that has changed greatly, but it's 
leadership that enables change to happen expeditiously. So I 
hope you will consider that.
    Congressman Ratcliffe. I will.
    Chairman Burr. I want to thank you, John, for your time 
this morning. I want to thank the Members for working under 
this temporary construct to continue to conduct the Committee's 
important business.
    I look forward to advancing your nomination rapidly and to 
voting in favor of your confirmation in the full Senate.
    Again, if any Members wish to submit questions for the 
record after today's hearing please do so quickly because it is 
my intention to bring Congressman Ratcliffe up for a vote 
inside the Committee soon.
    At this point we will recess and reconvene this afternoon 
in closed session in the Senate Intel room in the Capitol, SVC 
217. This hearing is adjourned.
    [Whereupon at 12:00 p.m. the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre></body></html>
